No.

CERVANTES
ORCHARDS
&
VINEYARDS,
LLC,
CERVANTES
NURSERIES, LLC, CERVANTES PACKING
&
STORAGE, LLC,
MANCHEGO REAL, LLC, all Washington limited liability corporations;
JOSE G. CERVANTES, individually and as his separate property; DEAN
BROWNING WEBB and SCOTT ERIK STAFNE, as individuals,
Petitioners,

—v.—
DEERE & COMPANY, a corporation; DEERE CREDIT, INC., a corporation;
JOHN DEERE CAPITAL CORPORATION, a corporation; JOHN DEERE
FINANCIAL, a corporation, FKA FPC FINANCIAL; DEERE CREDIT
SERVICES, INC., a corporation; AMERICAN WEST BANK, a corporation; T16 MANAGEMENT CO,
LTD., a Washington corporation; GARY
JOHNSON, individually and upon behalf of their community property marital
estate; LINDA JOHNSON, individually and upon behalf of their community
property marital estate; ROBERT WYLES, individually and upon behalf of
their community property marital estate; MICHELLE WYLES, individually
and upon behalf of their community property marital estate; NW
MANAGEMENT REALTY SERVICES, INC., a Washington corporation, AKA
Northwest Farm Management Company; SKBHC HOLDINGS
LLC, a
Washington limited liability corporation,
Respondents/Defendants.
ON APPEAL FROM THE NINTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Dean Browning Webb, Esq.
3507 SE 197th Avenue Camas, WA 98607
(253) 686-5111
Attorney for Applicants Cervantes Orchards and Vineyards LLC; Cervantes
Nurseries LLC; Cervantes Packing & Storage LLC; Manchego Real LLC,
Jose G. Cervantes and Dean Browning Webb

i

QUESTIONS PRESENTED
Pinkerton, Salinas, Beck, and mediate causation:
Does the Pinkerton Doctrine, Pinkerton v. United
States, 328 U.S. 640, 647, 66 S.Ct. 1180, 90 L. Ed.
1489 (1946), Salinas v. United States, 522 U.S. 52, 65
118 S. Ct. 469, 139 L. Ed. 2d 352 (1997), Beck v.
Prupis, 529 U.S. 494 (2000), and the concept of
mediate causation apply to the imposition of civil
RICO § 1962(d) co-conspiratorial liability in this
case?
Should the Petitioners’ allegations against RICO §
1962(d) co-conspirators be ascribed to the Deere
Respondents RICO § 1962(d) co-conspirators
predicated upon the allegations of the Second
Amended Complaint?
When a court does not afford the sanctioned party
the additional procedural protections required to
impose punitive sanctions, is the court required to
tailor the amount of the sanction to the harm directly
caused by the sanctionable conduct, as is required for
the imposition of compensatory sanctions?

ii

PARTIES TO THE PROCEEDINGS
All parties to the proceedings are as noted in the
caption.

CORPORATE DISCLOSURE STATEMENT
Cervantes Orchards & Vineyards, LLC, a
Washington limited liability corporation; Cervantes
Nurseries, LLC, a Washington limited liability
corporation; Cervantes Packing & Storage, LLC, a
Washington limited liability corporation; and
Manchego Real, LLC, a Washington limited liability
corporation has no parent or subsidiary corporation.
No publicly held company owns any of its stock.

LIST OF RELATED PROCEEDINGS
There are no related proceedings.

iii

TABLE OF CONTENTS
Questions Presented……………………….…………….i
Parties to the Proceedings…………….……………….ii
Corporate Disclosure Statement…………….………..ii
List of Related Proceedings………….……….………..ii
Table of Contents……………….……..……….……….iii
Table of Authorities……………….………..…………..vi
Opinions Below………………………….………………..1
Jurisdiction………………………………………………..1
Constitutional Provisions, Treaties, Statutes,
Ordinance and Regulations Involved…………………1
Statement of the Case…………………………………...2
Factual Background……………………………………..4
Reasons for Granting the Petition…………………...11
I.

The District court Erred in not finding
Deere Liable for Allegedly Fraudulent
Acts of Non-Deere Petitioners when a
Bankruptcy Court Order and Expected
Testimony would show Deere’s liability for
Acts of T-16 and NWFM………………...11

II.

Judicial
Clarity
and
Universally
Consistent Interpretation and Logical
Application of Pinkerton, Salinas and
Beck Mandates Review……………...……31

iv
III.

The Cervantes Decision is Adversely
Challenged
and
Negatively
Commented……………………………...…37

IV.

Pinkerton Rationally Justifies Expansive
Application
Under
RICO
§1962(d)
Through Mediate Causation………….…41

CONCLUSION………………………………………….43
APPENDIX…...………………………………………….44
OPINION United States Court of
Appeals For the Ninth Circuit (July 5,
2019)…………………………………App. 1
OPINION United States Court of
Appeals For the Ninth Circuit (May 22,
2019)…………………………………App. 2
ORDER United States Court of Appeals
For the Ninth Circuit (March 5, 2018)
…………………………..……………App. 5
OPINION United States Court of
Appeals For the Ninth Circuit
(December 17, 2017) ………………App. 7
ORDER United States District Court
Eastern District of Washington at
Yakima (February 26, 2016)….App. 15
ORDER United States District Court
Eastern District of Washington at
Yakima (August 12, 2015) ……App. 20

v
ORDER United States District Court
Eastern District of Washington at
Yakima (July 17, 2015) …………App. 26
ORDER United States District Court
Eastern District of Washington at
Yakima (July 10, 2015) …………App. 52
ORDER United States District Court
Eastern District of Washington at Yakima
(December 19, 2014) ……………...App. 83
18 U.S. Code § 152.
Concealment of assets; false oaths and
claims, bribery………………………….App. 89
18 U.S. Code § 153. Embezzlement
against estate. ………………………….App. 91
18 U.S. Code §1962.
Prohibited activities………………….App. 91
18 U.S. Code § 1951 Interference
with commerce through threats or
violence…………………………………….App. 93
18 U.S. Code §1964. Civil
Remedies…………………………...App. 94
28 U.S.CODE § 1254(1)
Courts of Appeals; certiorari;
certified questions………………...App. 95
42 U.S.CODE § 1981.
Equal Rights Under the Law…...App. 96

vi

TABLE OF AUTHORITIES
Federal Cases
Baisch v. Gallina, 346 F.3d 366, 376–77
(2d Cir. 2003) ............................................................. 28
Beck v. Prupis, 529 U.S. 494 (2000) .............. 24, 37, 38
Brady v. Dairy Fresh Products Co., 974 F.2d 1149
(9th Cir. 1992).
Bryant v. Mattel, Inc., 2010U.S. Dist. LEXIS
103851 (C.D. Calif., 2 August 2010) .............. 17,23, 24
Bui v. Nguyen, 712 Fed. Appx. 606 (9th Cir. 2017) . 42
Cervantes Orchards & Vineyards et al. v.
Deere & Company, 2015 WL 4210978, *8
(E.D. Wash., July 10, 2015) .......................... 11, 16, 31
Cervantes Orchards & Vineyards LLC v.
American West Bank LLC, 2015 WL 4429054, *7
(E.D. Wash, July 17, 2015) ............................ 31, 32,33
Chevron Corp. v. Donziger, 833 F.3d 74
(2nd Cir. 2016) ........................................................... 40
United States v. Wilson, 605 F.3d 985
(D.C. Cir. 2010) .......................................................... 41
Goodyear Tire & Rubber Co. 581 U.S. ___, 137 S.Ct.
1178 (2017) ................................................................ 10
Harmoni International Spice, Inc., v. Hume, 914
F.3d 648 (9th Cir. 2019) ...................................... 31, 42
Iannelli v. United States, 420 U.S. 770 (1975) ......... 19
Insurance Brokerage Antitrust Litigation, 2017 WL
3642003 (D.N.J., August 23, 2017) ........................... 32
Insurance Brokerage Antitrust Litigation, 618 F.3d 300
(3rd Cir. 2010) ........................................................... 40

vii
Kriss v. Bayrock Group LLC, 2016 WL 7046816
(S.D.N.Y. 2 December 2016) ..................................... 28
Mai Ngoc Bui v. TonPhi Nguyen, 712 Fed. Appx. 606
(9th Cir. 2017); 2017 WL 4653438
(9th Cir., October 17, 2017) ........................................ 30
Neibel v. Trans World Assurance Co., 108 F.3d 1123
(9th Cir. 1997) ........................................................... 38
Pinkerton v. United States, 328 U.S. 640, 647, 66
S.Ct. 1180, 90 L. Ed. 1489 (1946) ..................... passim
Reves v. Ernst & Young, 507 U.S. 170 (1993) .......... 36
Religious Tech. Ctr. v. Wollersheim, 971 F.2d 364,
367 n.8 (9th Cir. 1992) .............................................. 15
Salinas v. United States, 522 U.S. 52, 65 118 S. Ct.
469, 139 L. Ed. 2d 352 (1997) ........................... passim
Sedima, S.P.R.L. v. Imrex Co., 473
U.S. 479, 493-98 (1985) ............................................. 30
Skilling v. United States, 130 S.Ct. 2896, 2928, 177
L. Ed. 2d 619 (2010) .................................................. 24
Smith v. Berg, 247 F.3d 532 (3rd Cir. 2001)) passim
United States v. Antar, 53 F.3d 568 (3d Cir. 1995)37, 38
United States v. Bingham, 653 F.3d 983
(9th Cir. 2011) ..................................................... 23, 41
United States v. Christensen, 624 F. App’x 466, 47374 (9th Cir. 2015) ...................................................... 42
United States v. Christensen, 801 F.3d 970, 986 (9th
Cir. 2015) ................................................................... 23
United States v. Christensen, 828 F.3d 763, 776 (9th
Cir. 2015) ................................................................... 42
United States v. Cianci, 378 F.3d 71 (1st Cir. 2004) 40

viii
United States v. Collazo, --- F.3d --- (9th Cir. 2019);
2019 U.S. App. LEXIS 28328 (9th Cir.,
19 September 2019); 2019 WL 450892
(9th Cir., 19 September 2019) ................................... 42
United States v. Cornelius, 696 F.3d 1307
(10th Cir. 2012) ......................................................... 41
United States v. Fattah, 902 F.3d 197 (3rd Cir. 2018)40
United States v. Fernandez, 388 F.3d 1199
(9th Cir. 2004) .................................................. passim
United States v. Fiander, 547 F.3d 1036
(9th Cir. 2008) ................................................... 17, 41
United States v. Flores, 725 Fed. Appx. 478
(9th Cir., 14 February 2018) ..................................... 42
United States v. Harris, 695 F.3d 1125
(10th Cir. 2012) ......................................................... 41
United States v. Henley, 766 F.3d 893 (8th Cir. 2014)41
United States v. Houston, 648 F.3d 806,
(9th Cir. 2011) .................................................... 23, 41
United States v. Ledbetter, 929 F.3d 338
(6th Cir. 2019) ........................................................... 41
United States v. Martinez, 657 F.3d 811
(9th Cir. 2011) ..................................................... 22, 41
United States v. Moore, 651 F.3d 397 (D.C. Cir. 2011)41
United States v. Mouzone, 687 F.3d 207
(4th Cir. 2012) ........................................................... 41
United States v. Pipkins, 378 F.3d 1281
(11th Cir. 2004) ......................................................... 41
United States v. Rodriguez-Torres, 2019 US. App.
LEXIS 28035 (1st Cir., 18 September 2019) ............ 40
United States v. Schiro, 679 F.3d 521

ix
(9th Cir. 2012) ........................................................... 41
United States v. Shryock, 342 F.3d 948
(9th Cir. 2003) ........................................................... 41
United States v. Stinson, 647 F.3d 1196
(9th Cir. 2011) ........................................................... 41
United States v. Tello, 687 F.3d 785 (7th Cir. 2012) 41
United States v. Volpendesto, 746 F.3d 273
(7th Cir. 2014) ........................................................... 41
United States v. White, 670 F.3d 1077 (9th Cir. 2012)42
United States v. Young, 720 Fed.Appx. 846
(9th Cir. 2017); 2017 U.S. App. LEXIS 26858
(9th Cir., 27 December 2017); 2017 WL 6603511
(9th Cir., 27 December 2017) .................................... 42
United States v. Zichettello, 208 F.3d 72
(2nd Cir. 2000) ........................................................... 40
Waste Management of Louisiana, LLC v. River Birch
Incorporated, 920 F.3d 958 (5th Cir. 2019) .............. 41
United States v. Yannotti, 541 F.3d 112, 122 (2d Cir.
2008) .................................................................... 26, 29
Xue Lu v. United States, 921 F.3d 850, 858
(9th Cir. 2019) ........................................................... 10
Statutes
18 U.S.Code § 1964(c)................................................ 25
18 U.S. Code ⸹ 1951................................................... 24
18 U.S.Code § 153...................................................... 13
18 U.S.Code § 1961...................................................... 2
18 U.S. Code § 1962................................................... 23
18 U.S. Code § 1962(a), (b), and (c) ............................. 2
18 U.S.Code § 1962(c)........................................ passim
18 U.S.Code § 1962(d) ....................................... passim

x
18 U.S.Code §§ 152 and 153...................................... 12
28 U.S.Code § 1254(1) ................................................. 1
42 U.S.Code § 1981...................................................... 4
Other Authorities
Charles Alan Wright & Arthur R. Miller, Federal
Practice and Procedure Section 1476 (3d ed. 2016) ... 5
Dean Browning Webb, Judicially Fusing The
Pinkerton Doctrine To RICO Conspiracy Litigation
Through The Concept of Mediate Causation, 97
Kentucky Law Journal 665, 679- 688 (2008-2009) .. 18
Susan W. Brenner, Civil Complicity: Using The
Pinkerton Doctrine To Impose Vicarious Liability in
Civil RICO Actions, 81 Kentucky Law Journal 369,
384-387, 388 (1992-93) .............................................. 17
Susan W. Brenner, Of Complicity and Enterprise
Criminality: Applying Pinkerton Liability to RICO
Actions, 56 MO. L. Rev. 931, 974-75, nn. 189-190
(1991) ......................................................................... 20
Susan W. Brenner, Of Complicity and Enterprise
Criminality: Applying Pinkerton Liability to RICO
Actions, 56 Mo. L. Review 931, 963-965 (1991) ........ 17
Rules
FRCP 12(a) .................................................................. 4
FRCP 12(b)(6) ........................................................ 7, 36
FRCP 12(e)............................................................... 4, 5
FRCP 12(f) ............................................................... 4, 5
FRCP 15(a)(2) .............................................................. 5
FRCP 56(a) .................................................................. 7
FRCP 8(a) .................................................................. 23
Rule 11 ................................................................... 6, 11

xi
Supreme Court Rule 10(a), (c) .................................. 40

1
OPINIONS BELOW
The opinions and orders of the United States Court
of Appeals for the Ninth Circuit are unreported and
reprinted in the appendix of this petition. The
District Court’s opinions and orders are unreported.
JURISDICTION
The United States Court of Appeals for the Ninth
Circuit entered separate opinions and judgments on
17 December 2017 (App. 7), 5 March 2018 (App. 5),
22 May 2019 (App. 2), and 5 July 2019 (App. 1). The
Court has competent subject matter jurisdiction over
this case, pursuant to 28 U.S.C. § 1254(1). Strictly
complying with Rule 14, this Honorable Court, by
and through the Honorable Elana Kagan, entered an
order 3 October 2019, granting Petitioners’ extension
application to file the petition for writ of certiorari,
extending the filing date to 2 December 2019.
CONSTITUTIONAL PROVISIONS , TREATIES,
STATUTES, ORDINANCES, AND REGULATIONS
INVOLVED
Pertinent statutes and regulations are reproduced in
Appendix.

2
STATEMENT OF THE CASE
The Racketeer Influenced and Corrupt
Organizations Act of 1970, aka RICO (Title 18 U.S.C.
§ 1961, et.seq.) confers private attorneys’ general
authority upon civil litigants to prosecute treble
damage relief actions arising from commission of
specific statutorily identified federal and state
offenses. Significant to litigants is RICO §1962(d),
the
conspiracy
provision
that
proscribes
contravention of the three RICO substantive
statutory offenses codified by RICO §§1962(a), (b),
and (c). The Cervantes who are Hispanic Americans,
owned, operated, and managed several corporate
affiliated entities, initiated an action against the
Deere Respondents, e who engaged in activities that
damaged the agricultural property and business
interests of the Cervantes to enrich themselves.
Cervantes’ alleged the Deere Respondents conspired
with
non-affiliated
corporate
entities
and
individuals, namely NWFM, Wyles, T-16, Johnson,
American West Bank, et.al, to accomplish this
objective. The District Court ruled that the RICO
conspiracy claim failed inasmuch as the Deere
Respondents could not be held conspiratorially liable
for the commission of underlying racketeering
activities of non-affiliated entities and individuals,
which is inconsistent with established RICO
conspiracy
judicial
pronouncements
under
Pinkerton, Salinas, and Beck, notwithstanding the
fact those non-affiliated Deere entities and

3
individuals were acting upon behalf of those Deere
affiliated entities. The First Amended Complaint was
summarily stricken and the court granted leave to
file a Second Amended Complaint, imposing a 30
page restriction.
The Cervantes' filed the SAC in accordance
with the District Court order entered 19 December
2014. See App. 83. The District Court entered orders
in July, 2015. See App. 26 and App. 52. The District
Court found that Cervantes sufficiently alleged a
single form of racketeering activity notwithstanding
summarily rejecting Deere's arguments the action
was precluded and foreclosed by doctrines of res
judicata and collateral estoppel. Cervantes' argued
for an opportunity to further amend , however the
District Court denied Cervantes leave to amend and
file a Third Amended Complaint, even though they
had ruled that one form of racketeering activity had
satisfactorily been alleged.
Certiorari
is
warranted
because
the
inconsistency reflected by the rulings of the various
district and circuit courts which
significantly
contrasts with established judicial positions of some
of the federal circuits which liberally construe and
broadly interpret RICO § 1962(d) conspiracy in
conformity with Pinkerton, Salinas, and Beck.
Specifically, the decision of the Ninth Circuit and the
District Court in this matter, is patently inconsistent
with prevailing judicial positions of the First,

4
Second, Third, Fourth, Fifth, Sixth, Seventh, Eighth,
Tenth, Eleventh, and D.C. Circuits, and, most
notably, patently inconsistent with other prevailing
Ninth Circuit RICO § 1962(d) conspiracy law.
Regarding the question of sanctions, this
petition does not involve the interpretation of
statutory provisions, but rather the federally
recognized “inherent authority” of a court to impose
sanctions and the constitutional due process
restraints upon such authority
Factual Background
Petitioners initiated this proceeding on
September 2, 2014, filing a Complaint, advancing
multiple claims for relief under RICO Title 18 U.S.C.
§§ 1961, et.seq.), the Ku Klux Klan Act of 1871
[“KKK”] (Title 42 U.S.C. § 1981. et.seq.) and various
Washington state law claims. The Complaint alleged
the Respondents engaged in RICO predicate acts of
federal extortion, federal bankruptcy fraud, federal
mail fraud, and federal wire fraud.
Certain Respondents answered the complaint, FRCP
12(a), and certain Respondents moved for a more
certain and definite statement, FRCP 12(e), and
alternatively to strike, FRCP 12(f), based upon the
337 page length of the Complaint.

5
As a matter of right pursuant to FRCP 15(a)(2),
Petitioners filed a First Amended Complaint (FAC)
on October 17, 2014, comprised of 143 pages, of
which only 66 pages constituted the civil RICO
allegations.
The FAC removed certain party
Petitioners, and abandoned numerous claims for
relief. Simultaneously, Petitioners filed the required
RICO Case Statement, constituting 472 pages, (Local
Rule 3.2 of the District Court(. The RICO Case
Statement, requires the Petitioners to “state with
detail and specificity” facts, and was admittedly
lengthy, but was a separately filed document and
could have been separately dismissed or modified by
court order, on its own, without affecting the
allegations presented in the 143 page FAC. Upon the
filing of the FAC, it should have been noted that “an
amended complaint supersedes the original, the
latter being treated thereafter as non-existent.” See
Charles Alan Wright & Arthur R. Miller, Federal
Practice and Procedure Section 1476 (3d ed. 2016).
Deere, AWB/SKBH, and NWFCS Respondents
moved for a more certain and definite statement,
FRCP 12(e), and alternatively to strike, FRCP 12(f),
based solely upon the length of the First Amended
Complaint, including the RICO Case Statement (472
pages). Deere and NWFCS Respondents also sought
entry of an order restricting the filing of a Second
Amended Complaint, (SAC) with RICO Case
Statement, not to exceed 30 pages. AWB/SKBHC

6
Respondents
Complaint.

answered

the

First

Amended

The District Court granted Deere Respondents
motion to strike, entering an order on December 19,
2014, completely adopting the same coordinated
request of multiple Respondents that any Second
Amended Complaint would not exceed 30 pages,
including the required RICO Case Statement. See
App. 78. The District Court specifically chastised
Petitioners’ attorneys for filing excessively lengthy
pleadings, expressly noting the Court’s awareness of
counsel’s prior experience in the United States
District Court for the Western District of
Washington for engaging in such conduct and
specifically indicated a willingness to consider a
future sanction motion should counsel persist in such
conduct.
Petitioners duly complied with the District Court
Order, filing a SAC, which, including a RICO Case
Statement, did not exceed thirty (30) pages, thereby
abandoning a majority of Cervantes’ claims and
limiting their ability to fully adjudicate their issues.
On February 20, 2015, Deere’s counsel served
Petitioners’ counsel by United States mails
individually addressed envelopes containing a Rule
11 safe harbor letter accompanied with a proposed
Rule 11 motion directed solely at “Petitioners’
attorneys,” a supporting declaration of counsel with
eleven [11] specifically identified exhibits consisting

7
of prior entered court orders filed in federal
bankruptcy court and Yakima County Superior
Court proceedings involving disputes between Deere
Credit, Inc., and certain Petitioners pertaining to the
disposition of certain property interests.
The
gravamen of the Deere Rule 11 revolved exclusively
upon the application of the doctrines of res judicata
and collateral estoppel as the legal bases precluding
the filing of the instant action, and that a reasonable
investigation and review of those identified
documents would have alerted Petitioners’ counsel of
the patent absence of a reasonable, good faith basis
to initiate and pursue the action. Petitioners counsel
responded to the Rule 11 safe harbor letter, explicitly
taking issue with the foundation and the basis of
that submission as both problematical and
unreasonable.
Certain Respondents moved for entry of summary
judgment pursuant to FRCP 56(a) (T-16/Johnson - 12
February 2015) (SKBHC - 23 June 2015), and certain
Respondents moved for dismissal pursuant to FRCP
12(b)(6), (AWB/SKBHC - 16 January 16, 2015),
(Wyles - 20 January 2015), (Deere Respondents February 13, 2015).
Petitioners opposed those
motions.
The District Court entered an order on July
10, 2015, granting the Deere Respondents’ FRCP
12(b)(6) dismissal motion, dismissing the Second
Amended Complaint with prejudice and denying

8
leave to amend. The District Court rejected the
Deere Respondents’ principal argument that the
doctrines of res judicata and collateral estoppel
precluded Petitioners’ initiation of the proceedings.
The District Court did not find, despite the
allegations that NWFM and T-16 “took their
direction” from Deere, that Deere committed any
predicate acts of extortion, bankruptcy fraud, or mail
or wire fraud. The District Court did not find that it
was pleaded with “sufficient specificity” how Deere
Respondents would be liable for acts of NWFM or T16.
The District Court entered an order, (App. 25),
July 17, 2015 granting the Wyles and AWB/SKBHC
FRCP 12(b)(6) dismissal motions, dismissing the
Second Amended Complaint with prejudice and
denying leave to amend. The District Court ruled
federal RICO allegations were patently deficient
inasmuch as the conduct committed did not
constitute actionable extortion, mail fraud, or wire
fraud. However, the District Court ruled Petitioners
sufficiently alleged one predicate act of bankruptcy
fraud (i.e., “racketeering activity”). However, the
Judge found Petitioners had not sufficiently alleged a
second predicate act (describing that there was not
enough specificity as to when certain items of
property were stolen (section 153 violations), and not
enough specificity because certain Respondents were
“lumped” together). Petitioners contend that the SAC
adequately described subsequent racketeering acts

9
sufficient to support a “pattern of racketeering,” and
certainly there was specificity and particularity to
find additional racketeering activity evident in the
improperly stricken FAC. (App. 51)
The District Court entered an order 12 August
2015, granting the Deere sanction motion. (App. 20).
The District Court subsequently entered an order 26
February 2016, granting the Wyles sanction motion.
See App.15.
Petitioners timely filed their notice of appeal to the
Ninth Circuit on August 14, 2015, and this appeal
ensued.
The Ninth Circuit entered a Memorandum Decision
17 December 2017, affirming in part, reversing and
remanding to the District Court, expressly finding
error committed by the imposition of the entire
amount of monetary sanctions requested upon
Petitioners’ counsel. The appellate court ruled the
operative pleading subject to the sanctions was solely
the Second Amended Complaint. See App. 7.
Petitioners’ counsel, real parties of interest,
petitioned the Ninth Circuit for rehearing and
rehearing en banc. The Ninth Circuit denied the
petitions, entered 5 March 2018. See App. 5.
Petitioners’ counsel subsequently appealed to the
Ninth Circuit the entry of the District Court order
imposing the entire amount of monetary sanctions
requested for the filing of the Second Amended

10
Complaint, absent an evidentiary hearing, which is
contrary to the Supreme Court’s directive enunciated
and established in Goodyear Tire & Rubber Co. 581
U.S. ___, 137 S.Ct. 1178 (2017). See Xue Lu v. United
States, 921 F.3d 850, 858 (9th Cir. 2019)(applying
Goodyear, summarily rejecting District Court ‘rubber
stamping’ request for entire fees requested by
declaration, absent evidentiary hearing). The Ninth
Circuit entered a Memorandum Decision 22 May
2019, affirming the District Court order. See App. 2.
Petitioners then filed a petition for rehearing and
rehearing en banc which was denied and entered 5
July 2019. See App. 1.
REASONS FOR GRANTING THE PETITION
Certiorari is warranted inasmuch the Pinkerton
Doctrine should be accorded judicially symmetrical
interpretation and expansive application to RICO §
1962(d) conspiracy law consistent with the RICO
Liberal Construction Clause. The decision below
stands apart from well-established principles of
RICO conspiracy law as evidenced by Salinas and
Beck. The decision is patently inconsistent with
decisions of the First, Second, Third, Fourth, Fifth,
Sixth, Seventh, Eighth, Tenth and Eleventh Circuits,
and the
District of Columbia Circuit, and is
patently inconsistent with prevailing Ninth Circuit
authority.

11
The Decision Finding The Deere Entities Not
Conspiratorially Liable Under RICO §1962(d) Is
Judicially Inconsistent With Pinkerton, Salinas, and
Beck
I.

The District Court Erred in Not Finding
Deere Liable for Allegedly Fraudulent
Acts of Non-Deere Petitioners When a
Bankruptcy Court Order, and Expected
Testimony, Would Show Deere’s Liability
for Acts of T-16 and NWFM

First, the District Court affirmatively ruled
that the Deere Respondents’ arguments of res
judicata and collateral estoppel failed and the Judge
concluded that neither of the prior actions barred
Petitioners’ lawsuit against the Deere Petitioners.
Cervantes Orchards & Vineyards, LLC v. Deere &
Co., 2015 U.S. Dist. LEXIS 93158; 2015 WL 4210978
(E.D. Wash, 10 July 2015).
As noted below, the res judicata argument by the
Deere Respondents was the principal reason they
were seeking Rule 11 sanctions, which sanctions the
Court found and reflexively ordered with regard to
the Deere Respondents based upon the view that one
alleged predicate activity (alleged extortion) was
frivolous.
Second, the District Court erred when it
concluded there was insufficient allegations that

12
Deere was not liable for the actions of T-16 and
NWFM, despite allegations presented that there was
a bankruptcy court order that the liquidation agent
(T-16) chosen by Deere was to “take its direction
from DCI [Deere Credit Inc] or as otherwise directed
by the Court.” The District Court ruled:
b. Bankruptcy Fraud
The Court next determines whether Petitioners
adequately have alleged predicate acts of
bankruptcy fraud. Petitioners contend that the
Deere Respondents were the principals of T-16
and NWFM, such that the Deere Respondents
are responsible for those entities' alleged
fraudulent acts, including the embezzlement of
property. Petitioners also alleged that DCI, T-16,
NWFM, Anderson, and Wyles committed
bankruptcy fraud by seeking to conceal from the
bankruptcy court a settlement agreement that
would have revealed the true extent of the
damage to a portion of the collateral property.
Petitioners allege that the Deere Respondents
committed predicate RICO acts of bankruptcy
fraud in violation of 18 U.S.C. §§ 152 and 153.
Section 152 prohibits, among other acts,
knowingly and fraudulently concealing property
of a bankruptcy estate and knowingly and
fraudulently making a false declaration in or in
relation to a bankruptcy case. 18 U.S.C. § 152(1),
(3). Section 153 prohibits certain persons with

13
access to bankruptcy estate property or
documents from knowingly and fraudulently
appropriating or embezzling the estate's
property. 18 U.S.C. § 153.
In support of the alleged bankruptcy fraud,
Petitioners claimed that the Deere Respondents
were liable for the alleged fraudulent acts of the
liquidating agent, T-16, because that entity was
ordered in the bankruptcy plan to "take its
direction from DCI or as otherwise directed by
the Court." T16, along with other Respondents,
allegedly
embezzled
property
from
the
bankruptcy estate, charged COV expenses for
labor and equipment that were used on other
property, and applied minimal labor and
resources to the estate property. Petitioners
further claim that the Deere Respondents are
liable for the false sworn declaration that
NWFM's co-owner, Mr. Anderson, allegedly filed
in bankruptcy court.
However, the District
Court found that Petitioners did not assert
sufficient facts to adequately plead that the
Deere Respondents are liable for the alleged
fraud perpetrated by T-16 or others. Although
the bankruptcy plan provided that T-16 would
take direction from DCI, Petitioners asserted no
facts indicating that DCI or the other Deere
Respondents would be liable for T-16's allegedly
fraudulent acts. Nor did Petitioners provide
factual assertions to support the contention that

14
the Deere Respondents are liable for the
allegedly false declaration. Rather, Petitioners'
assertion of the Deere Respondents' vicarious
liability is a legal conclusion, which is not
entitled to an assumption of truth.
Excluding Petitioners' conclusory statement that
the Deere Respondents were liable for the
actions of T-16 and NWFM, the Court found that
Petitioners did not raise a plausible claim that
the Deere Respondents committed any RICO
predicate acts of bankruptcy fraud.
2015 U.S. Dist. LEXIS 93158, *16.
Thus, there was clearly an issue of fact, as
buttressed by expected testimony of Respondents
and other factual allegations that DCI was in fact
directing the actions of T-16 (Johnson) and NWFM
(Wyles), and in particular DCI counsel was directing
the activities of these agents, which the Judge failed
to recognize and/or ignored. Thus, there were
sufficient allegations that Deere entities were
knowingly participating in bankruptcy fraud and
mail and wire fraud at this Rule 12(b)(6) stage of the
proceedings.
Third, the District Court erred in its analysis
when it found that because Petitioners had not
stated a substantive RICO claim against Deere
Respondents, the RICO conspiracy allegation fails as
well:

15
Petitioners were found to have failed to assert
sufficient facts to claim that the Deere
Respondents committed predicate RICO acts of
wire or mail fraud. Even according to the
asserted facts, there is no indication that the
Deere Respondents were aware of the settlement
agreement, which was between other parties.
Although the record does not identify the
"Cervantes Attorneys" with precision, they
apparently are Bruce Johnston and Dale
Foreman, who were dismissed voluntarily before
Petitioners filed the Second Amended Complaint
Nor, as discussed above in regard to bankruptcy
fraud, have Petitioners pleaded with sufficient
specificity how the Deere Respondents would be
liable for acts committed by T-16.
In sum, Petitioners were determined to have
failed to assert plausible RICO predicate acts to
support a claim that the Deere Respondents violated
18 U.S.C. § 1962(c). The District Court found that
because Petitioners did not state a substantive RICO
claim against the Deere Respondents, their RICO
conspiracy allegation under 18 U.S.C. § 1962(d)
failed. See Religious Tech. Ctr. v. Wollersheim, 971
F.2d 364, 367 n.8 (9th Cir. 1992) ("Because we find
that [plaintiff] has failed to allege the requisite
substantive elements of RICO, the conspiracy cause
of action cannot stand.").

16
Cervantes Orchards & Vineyards, LLC v. Deere &
Co., 2015 U.S. Dist. LEXIS 93158, at* 21; 2015 WL
4210978 (E.D. Wash, 10 July 2015).
The District Court cited to a 1992 case which
has limited, if no viability, in view of the Supreme
Court ruling in Salinas v. United States, 522 U.S. 52,
65 118 S. Ct. 469, 139 L. Ed. 2d 352 (1997). In
Salinas, the Court held that a plaintiff is not
required to allege or prove the actual completion of a
single racketeering act by the defendant or any other
member of the conspiracy because completion of an
overt act is not an element of the offense.
Moreover, the Supreme Court in Salinas specifically
held that there is no requirement that the
defendant “himself omitted or agreed to commit the
two predicate acts requisite for a substantive offense
under section 1962(c).” The Court further stated that
“[a] conspirator must intend to further an endeavor
which, if completed, would satisfy all of the elements
of a substantive criminal offense, but it suffices that
he adopt the goal of furthering or facilitating the
criminal endeavor.” Id. at 65.
As a result of Salinas, four circuits have held
there is no requirement to allege or prove the actual
completion of a single racketeering act by the
defendant or any other member of the conspiracy.

17
Salinas makes clear that section 1962(c) liability is
not a prerequisite to section 1962(d) liability, and a
recent district court decision reiterates this principle.
Moreover, the Ninth Circuit is among those which
have found that to meet the Reves “operation or
management” test, a plaintiff need only plausibly
allege that the defendant agreed to facilitate a
scheme in which conspirators who are operators or
managers would commit at least two acts in the
furtherance of the affairs of the enterprise. See also
Pinkerton v. United States, 328 U.S. 640, 647, 66
S.Ct. 1180, 90 L. Ed. 1489 (1946) (followed by
Salinas); United States v.
Fernandez, 388 F.3d
1199 (9th Cir. 2004), United States v. Fiander, 547
F.3d 1036 (9th Cir. 2008), and Bryant v. Mattel,
Inc., 2010 U.S. Dist. LEXIS 103851 (C.D. Calif., 2
August 2010), all expressly adopting and explicitly
following Smith v. Berg, 247 F.3d 532 (3d Cir. 2001),
Salinas, and Pinkerton.
Such compelling analysis is substantiated by
and through the application of the concept of mediate
causation. See Susan W. Brenner, Civil Complicity:
Using The Pinkerton Doctrine To Impose Vicarious
Liability in Civil RICO Actions, 81 Kentucky Law
Journal 369, 384-387, 388 (1992-93); See Susan W.
Brenner, Of Complicity and Enterprise Criminality:
Applying Pinkerton Liability to RICO Actions, 56 Mo.
L. Review 931, 963-965 (1991); and, See Dean
Browning Webb, Judicially Fusing The Pinkerton
Doctrine To RICO Conspiracy Litigation Through

18
The Concept of Mediate Causation, 97 Kentucky Law
Journal 665, 679- 688 (2008-2009) .
Comprehending
and
recognizing
that
Pinkerton is not actually a rule of vicarious liability
is significantly critical. Because the opinion includes
agency terminology, this case has been construed as
imposing vicarious liability. Rather than abrogating
the personal act requirement, Pinkerton … holds one
liable for the act of aligning … oneself with others for
criminal purposes; having done so, each non acting
member of the conspiracy is liable for crimes
committed by other conspirators because the acts of
alliance caused those crimes to be committed. This
affiliative act is sufficient to satisfy the traditional
causation requirements of criminal liability. Indeed,
this act is certainly more blameworthy than the acts
that suffice for imposing civil vicarious liability. The
only element of criminal liability that is attenuated
under Pinkerton … is causation, which is construed
just as it is under general complicity doctrines.
Neither the Pinkerton Doctrine nor complicity
requires that one’s wrongful act actually cause the
commission of the crime for which one is held
accountable.
Application of the concept of mediate
causation avoids the difficult task of specifying the
actual effect such acts had on another’s conduct by
making it possible to assume a causal effect
sufficient to support liability. The result is the

19
imposition of criminal liability that comports with
traditional requirements by including the element of
demonstrable personal fault:
“Mediate causation” denotes instances in which
an individual’s actions can be deemed to have
exerted some causal effect upon another’s
conduct. It resolves the problem of attempting to
identify the extent to which one person’s acts
actually affected another’s conduct by making it
possible, under certain circumstances, to
assume a causal effect that is sufficient to
support imposition of criminal liability. Under
Pinkerton, an agreement to commit a crime or
crimes is a prerequisite for liability. If such an
agreement existed, anyone who joined it is liable
for offenses other conspirators commit to
advance the objectives of their agreement. The
act of agreeing to the commission of certain
crimes suffices; it is not necessary that one
commit any affirmative act to advance the
realization of the goals of the conspiracy.
Complicity differs in two respects. First, one can
“aid and abet” the commission of a crime
without entering into an agreement to this
effect. See Iannelli v. United States, 420 U.S.
770 (1975). Second, to incur aiding and abetting
liability, it is not sufficient to associate oneself
with a criminal venture; it is also necessary to
commit an affirmative act that is intended to
further the commission of a substantive offense.

20
Still, Pinkerton recognizes affiliative liability
where an individual is deemed to have
committed a substantive offense even though
that person was not present at its commission
and did not physically consummate it.
Both Pinkerton and rules of complicity
accomplish this through a singular vehicle: they
attribute causation for crimes that are
physically perpetrated by another on the basis
of a unique “bad act’—that of entering into a
criminal affiliation. The premise of these
doctrines is that the act of aligning oneself with
others to pursue a criminal purpose has causal
significance. The causal import of this act is an
instance of “mediate causation.”
Susan W. Brenner, Of Complicity and Enterprise
Criminality: Applying Pinkerton Liability to RICO
Actions, 56 MO. L. Rev. 931, 974-75, nn. 189-190
(1991).
“Mediate causation” or “mediate causality”
significantly
illuminates
the
underpinnings
supporting the application of Pinkerton to RICO §
1962(d) conspiracy. The diversity of corporate and
individual malefactors,
mutually affiliated for
purposes of destroying a plaintiff’s interests in
business and/or property, is the setting rationally
justifying application of the Pinkerton Doctrine. The
commonality of achieving that objective is self
evident. As Brenner compellingly states:

21
Human beings, however, unite to commit crimes
far more often than they become another’s
instrumentality for doing so. It is this
circumstance which the Pinkerton doctrine and
rules of complicity address. Here, “causation by
motivation” operates in a more refined form.
The Pinkerton doctrine and rules of complicity
both target the act of affiliating with another or
others to achieve a criminal purpose on the
premise that this act reinforces and/or
exacerbates motivation that already exists on
some level. Because it operates on a
predisposition to engage in criminal conduct,
the affiliative act at issue in these doctrines
cannot be a “but for” cause of any criminal
results. It can, however, be a “contributing
cause” of crimes that result from such an
affiliation.
Id.
“Mediate” is used here as an antonym of
“immediate.” See, e.g., Websters’s, supra note 132, at
1526 (mediate denotes “an intervening cause . . . not
direct or immediate”). Outside this context, criminal
law, like torts, insists that causal relationships be
“immediate.”
Brenner’s treatment of Pinkerton in the
context of examining affiliative liability is
noteworthy for consideration by this Court in
examining the doctrine’s impact on Salinas:

22
This act [affiliating with another for a criminal
purpose] satisfies the criteria for imposing
accountability under the traditional criminal
law standard of personal liability: affiliating
with another for criminal purposes is a
voluntary act committed with a culpable mental
state, or mens rea, that causes a prohibited
social harm. (footnote omitted). In either of its
guises, as Pinkerton liability or as complicitous
liability, this act is clearly more culpable than
the act that suffices for imposition of vicarious
liability in civil law. . . . The only element of
criminal liability that is attenuated under
Pinkerton is causation, which receives the same
treatment accorded it under the kindred
doctrine of accomplice liability. Liability can
attach under either form of affiliative liability
without showing that the affiliative act actually
caused commission of certain crimes. (footnote
omitted). And because the affiliative act is a
wrong in itself, liability can attach even though
the target crime was not accomplished.
Id.
Substantiating application of Pinkerton to
RICO § 1962(d) civil conspiracy are a series of Ninth
Circuit published opinions supporting Petitioners’
argument. United States v. Martinez, 657 F.3d 811
(9th Cir. 2011) (RICO §1962(d) convictions of
Mexican Mafia members affirmed, citing United
States v. Fernandez, 388 F.3d 1199 (9th Cir. 2004),

23
which adopted Smith v. Berg, 247 F.3d 532 (3rd
Cir. 2001)); United States v. Houston, 648 F.3d 806,
(9th
Cir. 2011) (affirming RICO §§ 1962(c)-(d)
convictions for commission of VICAR activities;
Pinkerton jury instruction appropriate); United
States v. Bingham, 653 F.3d 983 (9th Cir. 2011);
(affirming RICO § 1962(d) conspiracy conviction of
members of Aryan Brotherhood, applying Pinkerton);
United States v. Stinson, 647 F.3d 1196 (9th Cir.
2011); United States v. White, 670 F.3d 1077, 1079
(9th Cir. 2012) (affirming RICO §§ 1962(c)-(d)
convictions); and United States v. Christensen, 801
F.3d 970, 986 (9th Cir. 2015) (affirming RICO §
1962(d) convictions of white collar professionals).
Petitioners sufficiently alleged injury to their
interests in business or property by reason of
violation of RICO § 1962. The United States District
Court for the Central District of California
thoroughly and intimately analyzed the issues
involving the appropriate assertion and pleading of
RICO predicate offenses, RICO pattern of
racketeering activity, and RICO § 1964(c) standing
in a complex intellectual property infringement case.
The District Court sustained the federal RICO
claims in Bryant v. Mattel, 2010 U.S. Dist. LEXIS
103851 (C.D. Calif., 2 August 2010), finding the
allegations sufficiently pleaded to satisfy claim
pleading for purposes of FRCP 8(a), FRCP 9(b), and
Twombly/Iqbal, and, critically significant in its

24
analysis, found Skilling v. United States, 130 S.Ct.
2896, 2928, 177 L. Ed. 2d 619 (2010), applicable in
the civil federal RICO context to sustain the ‘honest
services’ fraud predicated federal mail fraud and
federal wire fraud RICO claims.
Bryant v. Mattel corroborates Petitioners’
argument that by sustaining an injury to an
intangible personal property right, the right to
engage in business, can, in fact, produce a concrete
financial or property loss recognized for RICO §
1964(c) standing purposes. This very argument is
constructively analogous to injury to interests in
business or property for purposes of sustaining RICO
liability predicated upon contravention of the Hobbs
Act 18 U.S. Code ⸹ 1951 .
The concrete financial and property loss
causation argument supporting Petitioners is
similarly analyzed in the RICO § 1962(d) conspiracy
context in Bryant v. Mattel, 2010 U.S. Dist. LEXIS
103851 (C.D. Calif. 2 August 2010)(related case
wherein Pinkerton v. United States, 328 U.S. 640
(1946), Salinas v. United States, 522 U.S. 52 (1997),
Beck v. Prupis, 529 U.S. 494 (2000), and Smith v.
Berg, 247 F.3d 532 (3d Cir. 2001), are cited and
followed with approval in sustaining the finding of
standing to assert RICO § 1962(d) counter claims in
the context of complex intellectual property
infringement and commercial misappropriation of

25
trade secrets litigation). The argument compellingly
substantiates Petitioners’ argument here and in
connection with satisfying the RICO standing
requisite for Hobbs Act conspiracy to extort RICO
predicated claims:
II. Violation of 18 U.S.C. § 1964(c) Based
on Violation of § 1962(d) (RICO Conspiracy)
The FAAC’s second counterclaim alleges that
“Larian, MGA HK, [MGA Mexico], Bryant,
Machado, IGWT 826, [and] Omni 808” conspired
to violate § 1962(c) and thereby violated §
1962(d). FAAC P 129.
A.

Conspiracy

“[A] defendant is guilty of conspiracy to violate §
1962(c) if the evidence showed that she
‘knowingly agree[d] to facilitate a scheme which
includes the operation or management of a
RICO enterprise.’” United States v. Fernandez,
388 F.3d 1199, 1230 (9th Cir. 2004) [*45]
(quoting Smith v. Berg, 247 F.3d 532, 538 (3d
Cir. 2001)). “A conspiracy may exist even if a
conspirator does not agree to commit
or
facilitate each and every part of the substantive
offense. The partners in the criminal plan must
agree to pursue the same criminal objective and
may divide up the work, yet each is responsible
for the acts of each other.” Salinas v. United

26
States, 522 U.S. 52, 63-64, 118 S.Ct. 469, 139
L. Ed. 2d 352 (1997). A conspirator need not
have “specific knowledge of or participation in
each predicate act conducted by other members”
of the conspiracy. United States v. Yannotti, 541
F.3d 112, 122 (2d Cir. 2008). “[I]t suffices that
he adopt[ed] the goal of furthering or facilitating
the criminal endeavor.” Salinas, 522 U.S. at 65.
Vicarious liability for a co-conspirators
independently wrongful overt acts committed in
furtherance of the RICO conspiracy is consistent
with the long- standing principle that a
conspirator should be held liable for the
foreseeable consequences [*49] of the unlawful
agreement, i.e., overt acts in furtherance of the
conspiracy. See Pinkerton v. United States, 328
U.S. 640, 647, 66 S.Ct. 1180, 90 L. Ed. 1489
(1946).
2010 U.S. Dist. LEXIS 103851 at ** 44-47, 48-49.
Bryant v. Mattel supports Petitioners’ argument in
finding satisfaction of the RICO § 1964(c) standing
requisite. Petitioners’ sufficiently alleged a concrete
financial and property injury proximately caused by
the commission of racketeering activity.

II.

27
Judicial
Clarity
and
Universally
Consistent Interpretation and Logical
Application of Pinkerton, Salinas, and
Beck Mandates Review

The RICO § 1962(d) conspiracy claim was
sufficiently alleged under Salinas v. United States,
522 U.S. 52, 63-64, 118 S.Ct. 469, 139 L. Ed. 2d 352
(1997). Salinas holds that Section 1962(d) makes it
unlawful to conspire to violate any of the substantive
RICO provisions. A defendant need not agree to
individually perform acts amounting to a predicate
RICO violation to be liable under § 1962(d). Smith v.
Berg, 247 F.3d 532, 537 (3d Cir. 2001)(citing Salinas
v. United States, 522 U.S. 52, 65 118 S. Ct. 469,
139 L.ED.2d 352 (1997)). Rather, “a defendant
may be held liable for conspiracy to violate section
1962(c) if knowingly agrees to facilitate a scheme
which includes the operation or management of a
RICO enterprise.” Id. at 538. Where a defendant is
alleged to have conspired with a RICO enterprise to
violate § 1962(c) by providing it what would
ordinarily be lawful professional services, “liability
will arise only from services which were purposely
and knowingly directed at facilitating a criminal
pattern of racketeering activity.” Id. at 537, n.11.
Traditional conspiracy law governs the application of
§ 1962(d). This holding finds its support Pinkerton v.
United States, 324 U.S. 640, 66 S.Ct. 1180, 90 L.Ed.
1489 (1946).

28
This expansive “in furthering or facilitating”
under Salinas is illustrated in Kriss v. Bayrock
Group LLC, 2016 WL 7046816 (S.D.N.Y. 2 December
2016)(expressly finding that the pleading requisites
governing RICO § 1962(d) conspiracy relief claims
are less stringent than those for substantive RICO
claims, the court relied upon Salinas v. United
States, 522 U.S. 52, 65 (1997) to find sufficient
agreement, i.e., “In the civil context, a plaintiff must
allege that the defendant ‘knew about and agreed to
facilitate the scheme.’” (quoting Salinas, 522 U.S. at
66). Importantly, the court found that the Third
Amended Complaint contained factual allegations
sufficient to plead that the Salomon Petitioners also
knew about and agreed to facilitate the fraudulent
scheme, and thus this extensive participation in the
alleged scheme supports an inference that the
Salomon Petitioners “adopt[ed] the goal of furthering
or facilitating the criminal endeavor.” Baisch v.
Gallina, 346 F.3d 366, 376–77 (2d Cir. 2003) (quoting
Salinas, 522 U.S. at 65). Although the Salomon
Petitioners’ alleged conduct did not satisfy the
conduct element of a substantive RICO violation, as
explained above, that does not foreclose liability
under a RICO conspiracy claim, relying on Salinas,
522 U.S. at 64 (“A person, moreover, may be liable
for conspiracy even though he was incapable of
committing the substantive offense.”). id., at *18).
“[A] defendant is guilty of conspiracy to violate §

29
1962(c) if the evidence showed that she ‘knowingly
agree[d] to facilitate a scheme which includes the
operation or management of a RICO enterprise.’”
United States v. Fernandez, 388 F.3d 1199, (9th Cir.
2004) [*45] (quoting Smith v. Berg, 247 F.3d 532, 538
(3d Cir. 2001)). “A conspiracy may exist even if a
conspirator does not agree to commit or facilitate
each and every part of the substantive offense. The
partners in the criminal plan must agree to pursue
the same criminal objective and may divide up the
work, yet each is responsible for the acts of each
other. ” Salinas v. United States, 522 U.S. 52, 63-64,
118 S.Ct. 469, 139 L. Ed. 2d 352 (1997). A
conspirator need not have “specific knowledge of or
participation in each predicate act conducted by
other members” of the conspiracy. United States v.
Yannotti, 541 F.3d 112, 122 (2d Cir. 2008). “[I]t
suffices that he adopt[ed] the goal of furthering or
facilitating the criminal endeavor.” Salinas, 522 U.S.
at 65. See also Kriss v. Bayrock Group LLC, 2016 WL
7046816 (S.D.N.Y. 2 December 2016).
Deere adopted the goal of facilitating and
furthering the criminal endeavour by virtue of the
relationship Deere had with T-16, NWFM, and
American West Bank who took direction from Deere.
The underlying objective here was for Deere to
benefit, knowing they could purchase the properties
for fire sale prices, and Deere acquiescing and
ratifying the actions of the latter entities that

30
depressed and reduced the value of Petitioners’
properties by not properly managing those properties
and protecting those properties so
they could
produce maximum crop output.

The Ninth Circuit decision of Mai Ngoc Bui v.
TonPhi Nguyen, 712 Fed. Appx. 606 (9th Cir. 2017);
2017 WL 4653438 (9th Cir., October 17, 2017),
supports the underlying analysis advanced within
the petition. In Bui, the Court reversed and
remanded with instructions to allow Bui another
opportunity to amend her complaint, stating that
civil RICO is a valid means of recovery for a plaintiff
where the statutory requirements are met. Bui, *1,
citing Sedima, S.P.R.L. v. Imrex Co., 473 U.S. 479,
493-98 (1985) (civil RICO is to liberally construed).
The district court in Bui only found one predicate act
of wire fraud sufficiently alleged, while the plaintiff
there had alleged multiple acts of fraud. The Court
found however that the SAC sufficiently pleaded
three instances of wire fraud. Bui, *2.
This decision is instructive as it illustrates the
liberal construction of allowing leave to amend. Bui,
*3, stating any denials of leaves to amend are
“strictly reviewed in light of the strong policy
permitting amendment.”
Furthermore, this decision demonstrates that
a district court can be reversed when, as asserted,

31
the court abuses its discretion by incorrectly
determining (as a threshold issue) that the requisite
number of predicate acts of fraud (only two) has not
been sufficiently alleged. That is, the Bui Court
reversed without the need to consider at this stage of
the proceedings whether a “pattern of racketeering
activity” will ultimately be adequately alleged. Bui,
*3. See Cervantes Orchards & Vineyards LLC v.
American West Bank LLC, 2015 WL 4429054, *7
(E.D. Wash, July 17, 2015) (Petitioners found to have
alleged only one predicate act instead of the requisite
two acts); Cervantes Orchards & Vineyards et al. v.
Deere & Company, 2015 WL 4210978, *8 (E.D.
Wash., July 10, 2015) (Deere not vicariously liable
for alleged predicate activity of fraud by T-16 or
others). This position is diametrically inapposite
with, and patently incongruous to, prevailing Ninth
Circuit judicial authority finding expansive
application of RICO respondeat superior as
affirmatively expressed by Brady v. Dairy Fresh
Products Co., 974 F.2d 1149 (9th Cir. 1992). See
Harmoni International Spice Inc. v. Hume, 914 F.3d
648 (9th Cir. 2019).
III.

The Cervantes Decision Is Adversely
Challenged and Negatively Commented

Petitioners duly note that the District Court
Cervantes decision is negatively commented upon
and critically questioned by other federal courts. The
United States District Court for the District of New

32
Jersey entered an opinion and order in August, 2017,
specifically addressing particular pleading issues
raised by Petitioners challenging the sufficiency of
federal RICO claims predicated upon federal mail
fraud
and
federal
wire
fraud
statutory
contraventions, summarily jettisoned Cervantes’
reasoning and decision relative to settlement
agreement concealment fraud allegations. The
decision of In re Insurance Brokerage Antitrust
Litigation, 2017 WL 3642003 (D.N.J., August 23,
2017), denying Petitioners’ motion to dismiss a civil
RICO action, is significantly relative herein.
In Cervantes Orchards & Vineyards, LLC, et.al.,
v. American West Bank, et.al., 2015 WL 4429054, at
*7 (E.D. Wash. July 17, 2015). the District Court did
not
find
allegations
regarding
Petitioners’
concealment of a Settlement Agreement adequately
pleaded, stating, in part, that the existence of a
confidentiality
provision
in
the
Settlement
Agreement to show intent to conceal was not
plausible because “settlement agreements commonly
include confidentiality provisions.” Cervantes, at *7.
Petitioners in In re Insurance sought to rely on
Cervantes to show that confidentiality agreements
“are equally consistent with standard business
practices and do not plausibly imply any scheme to
defraud.” In re Insurance, supra, 2017 WL 3642033,
*8, ftn. 8:

33
The Court also rejects Petitioners' argument
that the confidentiality agreements “are equally
consistent with standard business practices and
do not plausibly imply any scheme to defraud.”
(ECF No. 2788 at 6, hereafter, “Defs.' Reply
Br.”). The case Petitioners cite, Cervantes
Orchards & Vineyards, LLC v. Am. W. Bank,
held that a confidentiality provision in a
settlement agreement did not, by itself, evince
an intent to conceal the settlement agreement
from a bankruptcy court because the district
court could take “judicial notice of the fact that
settlement agreements commonly include
confidentiality provisions.” See No. 1:14-cv3125-RMP, 2015 WL 4429054, at *7 (E.D. Wash.
July 17, 2015). Here, Petitioners plead both the
existence of confidentiality agreements and the
brokers' affirmative misrepresentations about
their
roles
in
the
marketplacemisrepresentations that their clients may have
questioned had the confidentiality agreements
not kept the brokers from disclosing the extent
of the commissions they received. See supra
Part II.A.3. Moreover, at this stage, the Court
has no basis to find that the confidentiality
agreements in this case constitute “standard
business practices” outside of the Lloyd's
Market.
The In re Insurance court rejected this

34
argument,
stating
that
confidentiality
agreements, there coupled with affirmative
misrepresentations by brokers about their roles
in marketplaces, were relevant in determining
their intent to conceal, and such confidentiality
agreements, in that case, did not constitute
‘standard business practices.” In re Insurance,
supra, ftn. 8.
Similar to the confidentiality agreements in In re
Insurance, the confidentiality provision in the subject
Settlement Agreement, coupled with Cervantes’s
allegations to the court of mismanagement of
properties by co-Respondents T-16 and NWFM
(under the “direction” of DCI [Deere Credit, Inc.]), is
entirely “plausible” and probative as to Respondents’
intent to conceal the agreement from the bankruptcy
court.
Accordingly, the critical assessment and negative
commentary registered by another federal court of
Cervantes in this particular context, relative to
satisfying federal pleading requisites applicable to
federal RICO litigation, rationally justifies granting
the petition and entry of an appropriate order
therein.
IV.

Pinkerton Rationally Justifies Expansive
Application
Under
RICO
§1962(d)
Through Mediate Causation

35
Under Pinkerton, an agreement to commit a
crime or crimes is a prerequisite for liability. If such
an agreement existed, anyone who joined it is liable
for offenses other conspirators commit to advance the
objectives of their agreement. The act of agreeing to
the commission of certain crimes suffices; it is not
necessary that one commit any affirmative act to
advance the realization of the goals of the conspiracy.
Complicity differs in two respects. First, one can
“aid and abet” the commission of a crime without
entering into an agreement to this effect. Second, to
incur aiding and abetting liability, it is not sufficient
to associate oneself with a criminal venture; it is also
necessary to commit an affirmative act that is
intended to further the commission of a substantive
offense. Still, Pinkerton recognizes affiliative liability
where an individual is deemed to have committed a
substantive offense even though that person was not
present at its commission and did not physically
consummate it. Both Pinkerton and rules of
complicity accomplish this through a singular
vehicle: they attribute causation for crimes that are
physically perpetrated by another on the basis of a
unique “bad act’ - that of entering into a criminal
affiliation. The premise of these doctrines is that the
act of aligning oneself with others to pursue a
criminal purpose has causal significance. The causal
import of this act is an instance of “mediate
causation.”

36
Ninth Circuit judicial authorities broadly
construe RICO conspiracy law. See United States v.
Fernandez, 388 F.3d 1199 (9th Cir. 2004)(adopting
and following Smith v. Berg, 247 F.3d 532 (3rd Cir.
2001), expanding application of RICO conspiracy
law). RICO conspiratorial liability could properly be
ascribed and established under both Pinkerton and
the concept of mediate causation.
Petitioner’s RICO § 1962(d) legal arguments
are furthermore
substantiated and soundly
corroborated by the reasoning of the United States
Court of Appeals for the Third Circuit in Smith v.
Berg, 247 F.3d 532 (3rd Cir. 2001). Smith is
especially important here. Racial minorities and
ethnic minorities, selectively targeted by corporate
financial institutions acting in concert with real
estate developers and brokers, were victimized by
and through predatory mortgage lending practices,
initiated a RICO § 1962(c)-(d) action seeking damage
relief. Summarily denying defendants’ FRCP 12(b)(6)
dismissal motion, the resulting interlocutory appeal
presented significantly critical issues of RICO
conspiracy law. Smith liberally construed Salinas v.
United States, 522 U.S. 52 (1997) and rules that
Reves v. Ernst & Young, 507 U.S. 170 (1993) is
inapplicable to RICO § 1962(d) claims.
More
importantly is the appellate court’s affirmative
expression that a RICO conspiracy claim can be
maintained against a non-acting RICO coconspirator where a plaintiff alleges that any one

37
RICO co-conspirator engaged in conduct that
constitutes “racketeering activity” resulting in
injury. The court found that the Supreme Court in
Beck v. Prupis, 529 U.S. 494, 120 S. Ct. 1608, 146
L.Ed.2d 561 (2000), did not prohibit this particular
pleading approach under RICO § 1962(d):
This case presents two questions: First, in light
of the Supreme Court’s decision in Salinas v.
United States, 522 U.S. 52, 118 S. Ct. 469
(1997), may liability under the federal
Racketeer
Influenced
and
Corrupt
Organizations Act (“RICO”) conspiracy statute
codified at 18 U.S.C. § 1962(d) be limited to
those who would, on successful completion of
the scheme, have participated in the operation
or management of a corrupt enterprise? Second,
did the Supreme Court’s more recent decision in
Beck v. Prupis, 529 U.S. 494, 120 S. Ct. 1608,
146 L.Ed.2d 561 (2000), limit application of its
holding in Salinas to criminal cases? Ruling
against the Petitioners on both issues, we will
affirm the Orders of the District Court for the
Eastern District of Pennsylvania. In doing so,
we hold that any reading of United States v.
Antar, 53 F.3d 568 (3d Cir. 1995), to the effect
that conspiracy liability under section 1962(d)
extends only to those who have conspired
personally to operate or manage the corrupt
enterprise, or otherwise suggesting that
conspiracy liability is limited to those also

38
liable, on successful completion of the scheme,
for a substantive violation under section
1962(c), is inconsistent with the broad
application of general conspiracy law to section
1962(d) as set forth in Salinas.
247 F.3d at 534.
The Ninth Circuit recognized and applied
Smith v. Berg, 247 F.3d 532 (3rd Cir. 2001)135 and
affirmatively followed and with approval in United
States v. Fernandez, 388 F.3d 1199 (9th Cir. 2004).
Fernandez, one of six consolidated appeals involving
federal RICO conspiracy and related RICO issues,
affirmatively overruled the Ninth Circuit’s earlier
ruling in Neibel v. Trans World Assurance Co., 108
F.3d 1123 (9th Cir. 1997), addressing RICO §
1962(d), as inapposite and inconsistent with
subsequent United States Supreme Court authorities
construing that provision as expressed in Salinas v.
United States, 522 U.S. 52 (1997) and Beck v. Prupis,
529 U.S. 494 (2000).
More
importantly,
the
Ninth
Circuit
recognized Neibel’s legal reasoning rested upon an
earlier Third Circuit decision, United States v. Antar,
53 F.3d 568, 581 (3rd Cir. 1995), and that Antar was
overruled by a latter Third Circuit decision, Smith v.
Berg, 247 F.3d 532 (3rd Cir. 2001), which squarely
addressed RICO conspiracy law in light of Salinas
and Beck. Affirming the RICO conspiracy
convictions, the Ninth Circuit expressly repudiated

39
Neibel and announced recognition of Smith v. Berg,
247 F.3d 532 (3rd Cir. 2001):
We now agree with the Third Circuit that the
rationale underlying its distinction in Antar,
and our holding in Neibel, is no longer valid
after the Supreme Court’s opinion in Salinas.
Accordingly, this case presents a situation
similar to Miller v. Gammie, in which we held
that “where the reasoning or theory of our prior
circuit authority is clearly irreconcilable with
the reasoning or theory of intervening higher
authority, a three-judge panel should consider
itself bound by the later and controlling
authority, and should reject the prior circuit
opinion as having been effectively overruled.”
335 F.3d 889, 893 (9th Cir. 2003) (en banc). We
adopt the Third Circuit’s Smith test, which
retains Reves’ operation or management test in
its definition of the underlying substantive §
1962(c) violation, but removes any requirement
that the defendant have actually conspired to
operate or manage the enterprise herself.
Under this test, a defendant is guilty of
conspiracy to violate § 1962(c) if the evidence
showed that she “knowingly agree[d] to
facilitate a scheme which includes the operation
or management of a RICO enterprise.” Smith,
247 F.3d at 538.
388 F.3d at 1229.

40
Accordingly, predicated upon the above analysis and
argument, the District Court erred, and the panel
did not consider, these significant legal arguments
expressly addressing the RICO conspiracy law,
Pinkerton, and the concept of mediate causation to
serve as viable legal instrumentalities and effective
vehicles to sustain the good faith based RICO
conspiracy damage relief claim, the petition should
be granted therein and entry of an appropriate order
thereon.
The decision significantly conflicts with and is
patently inconsistent with Pinkerton, Salinas, and
Beck, as well as the established positions of the First
Circuit, Second Circuit, Third Circuit, Fourth
Circuit, Fifth Circuit, Sixth Circuit, Seventh Circuit,
Eighth Circuit, Tenth Circuit, Eleventh Circuit and
District of Columbia Circuit and conflicts with
prevailing Ninth Circuit for purposes of Supreme
Court Rule 10(a), (c). First Circuit: United States v.
Rodriguez-Torres, 2019 US. App. LEXIS 28035 (1st
Cir., 18 September 2019); United States v. Cianci,
378 F.3d 71 (1st Cir. 2004); Second Circuit: United
States v. Zichettello, 208 F.3d 72 (2nd Cir. 2000) and
Chevron Corp. v. Donziger, 833 F.3d 74 (2nd Cir.
2016); Third Circuit: Smith v. Berg, 247 F.3d 532
(3rd Cir. 2001); In re Insurance Brokerage Antitrust
Litigation, 618 F.3d 300 (3rd Cir. 2010); United
States v. Fattah, 914 F.3d 112 (3rd Cir. 2019); and,
United States v. Fattah, 902 F.3d 197 (3rd Cir. 2018)

41
; Fourth Circuit: United States v. Mouzone, 687 F.3d
207 (4th Cir. 2012); Fifth Circuit: Waste Management
of Louisiana, LLC v. River Birch Incorporated, 920
F.3d 958 (5th Cir. 2019); Sixth Circuit: United States
v. Ledbetter, 929 F.3d 338 (6th Cir. 2019); Seventh
Circuit: United States v. Volpendesto, 746 F.3d 273
(7th Cir. 2014) ;United States v. Tello, 687 F.3d 785
(7th Cir. 2012); and, United States v. Schiro, 679
F.3d 521 97th Cir. 2012); Eighth Circuit: United
States v. Henley, 766 F.3d 893 (8th Cir. 2014); Tenth
Circuit: United States v. Cornelius, 696 F.3d 1307
(10th Cir. 2012) and United States v. Harris, 695
F.3d 1125 (10th Cir. 2012); Eleventh Circuit: United
States v. Pipkins, 378 F.3d 1281 (11th Cir. 2004),
and; District of Columbia Circuit: United States v.
Wilson, 605 F.3d 985 (D.C. Cir. 2010); United States
v. Moore, 651 F.3d 397 (D.C. Cir. 2011).
.
Critically significant, the decision directly
conflicts with, and is patently inconsistent with,
established Ninth Circuit authority construing
Pinkerton, Salinas, and Beck. See United States v.
Fernandez, 388 F.3d 1199 (9th Cir. 2004)(adopting
and following Smith v. Berg, 247 F.3d 532 (3rd Cir.
2001)); United States v. Fiander, 547 F.3d 1036 (9th
Cir. 2008); United States v. Bingham, 653 F.3d 983
(9th Cir. 2011); United States v. Martinez, 657 F.3d
811 (9th Cir. 2011); United States v. Stinson, 647
F.3d 1196 (9th Cir. 2011); United States v. Houston,
648 F.3d 806 (9th Cir. 2011); United States v.
Shryock, 342 F.3d 948 (9th Cir. 2003); United States

42
v. White, 670 F.3d 1077 (9th Cir. 2012); United States
v. Christensen, 828 F.3d 763, 776 (9th Cir. 2015);
United States v. Christensen, 624 F. App’x 466, 47374 (9th Cir. 2015); United States v. Young, 720
Fed.Appx. 846 (9th Cir. 2017); 2017 U.S. App. LEXIS
26858 (9th Cir., 27 December 2017); 2017 WL
6603511 (9th Cir., 27 December 2017); United States
v. Flores, 725 Fed. Appx. 478 (9th Cir., 14 February
2018); Harmoni International Spice, Inc., v. Hume,
914 F.3d 648 (9th Cir. 2019); and, Bui v. Nguyen, 712
Fed. Appx. 606 (9th Cir. 2017). See United States v.
Collazo, --- F.3d --- (9th Cir. 2019); 2019 U.S. App.
LEXIS 28328 (9th Cir., 19 September 2019); 2019
WL 450892 (9th Cir., 19 September 2019)(en banc
hearing ordered; appeal from jury convictions and
sentences
for
Pinkerton
Doctrine
premised
racketeering (RICO) conspiracy and conspiracy to
distribute controlled substances; argument to be
calendared the week of 13 January 2020, in
Pasadena, California).
Judicial clarification is warranted to achieve
judicial symmetry in this significant area of RICO
jurisprudence. Accordingly, certiorari should be
granted.
Certiorari is warranted inasmuch as judicial
symmetry and rational justification belying
expansive application and liberal interpretation of
Pinkerton, Salinas, and Beck is both consonant and

44
APPENDIX
TABLE OF CONTENTS
OPINION United States Court of Appeals
for the Ninth Circuit (July 5, 2019) . . . . . . . . A pp. 1
OPINION United States Court of Appeals
for the Ninth Circuit (May 22, 2019) . . . . . . . A pp. 2
ORDER United States Court of Appeals
for the Ninth Circuit (March 5, 2018) . . . . . . A pp. 5
OPINION United States Court of Appeals
for the Ninth Circuit (December 17, 2017) . . App. 7
ORDER United States District Court
Eastern District of Washington at Yakima
(February 26, 2016) . . . . . . . . . . . . . . . . . . . . App. 15
ORDER United States District Court
Eastern District of Washington at Yakima
(August 12, 2015) . . . . . . . . . . . . . . . . . . . . . App. 20
ORDER United States District Court
Eastern District of Washington at Yakima
(July 17, 2015) . . . . . . . . . . . . . . . . . . . . . . . . A pp. 26
ORDER United States District Court
Eastern District of Washington at Yakima
(July 10, 2015) . . . . . . . . . . . . . . . . . . . . . . . . App. 52
ORDER United States District Court
Eastern District of Washington at Yakima
(December 19, 2014) . . . . . . . . . . . . . . . . . . . . . App. 83

45
18 U.S. Code § 152 Concealment of assets;
false oaths and claims, bribery. .. . . . . . . . . . App. 89
18 U.S. Code § 153 Embezzlement against
estate. …………………….. . . . . . . . . . . . . . . . App. 91
18 U.S CODE §1962. Prohibited activities. . . App. 91
18 U.S CODE §1951. Interference with commerce
through threats or violence………………... . . App. 93
18 U.S CODE §1964. Civil Remedies ities. . . App. 94
28 U.S.CODE § 1254(1) Courts of Appeals; certiorari;
certified questions
. . . . . . . . . . . . . . . . . App. 95
42 U.S. Code § 1981
Equal Rights Under the Law . . . . . . . . . . . App. 96

App. 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-35366
CERVANTES ORCHARDS & VINEYARDS, LLC, a
Washington limited liability corporation; et al.,
Plaintiffs,
and
DEAN BROWNING WEBB; SCOTT ERIK STAFNE,
Appellants,
v.
DEERE CREDIT, INC., a corporation; etal.,
Defendants-Appellees.
On Appeal from the United States District Court
Eastern District of Washington at Yakima
District Court No. 1:14-cv-03215-RMP
Before: Michael Daly Hawkins, Circuit Judge, M.
Margaret McKeown, Circuit Judge and Morgan B.
Christen, Circuit Judge
Filed: July 5, 2019
ORDER
The panel votes to deny the petitions for rehearing.
The full court has been advised of the petitions for
rehearing and rehearing en banc and no judge has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petitions for panel rehearing and the petitions
for rehearing en banc (Dkt. 45, 46) are denied.

App. 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-35366
CERVANTES ORCHARDS & VINEYARDS, LLC,
a
Washington limited liability corporation; et al.,
Plaintiffs,
and
DEAN BROWNING WEBB; SCOTT ERIK STAFNE,
Appellants,
v.
DEERE CREDIT, INC., a corporation; et al.,
Defendants-Appellees.
On Appeal from the United States District
Court Eastern District of Washington at
Yakima District Court No. 1:14-cv-03215-RMP
Before: Michael Daly Hawkins, Circuit Judge, M.
Margaret McKeown, Circuit Judge and Morgan B.
Christen, Circuit Judge
Filed: May 22, 2019
MEMORANDUM DISPOSITION *
Dean Browning Webb and Scott Erik Stafne, who
represented the plaintiffs in the merits portion of the
underlying lawsuit, appeal the district court's
assessment of sanctions pursuant to Federal Rule of

App. 3

Civil Procedure 11.1 Because the parties are familiar
with the facts, we do not recite them here. We have
jurisdiction under 28 U.S.C. § 1291, and we review
for abuse of discretion the district court's award of
Rule 11 sanctions. Cooter & Gell v. Hartmarx Corp.,
496 U.S. 384, 405, 110 S. Ct. 2447, 110 L. Ed. 2d 359
(1990).
We affirm.
In a previous appeal, we affirmed the district court's
imposition of Rule 11 sanctions. Cervantes Orchards
& Vineyards, LLC v. Deere & Co., 731 F. App'x 570,
573-74 (9th Cir. 2017). However, we vacated the
attorney's fees award and remanded for "further
explanation regarding the basis, amount, and
reasonableness of the attorney's fees."
On remand, the district court fully explained the
deterrent value of attorney's fees and how it
calculated the amount. The court clarified that the
plaintiffs had not prevailed on any issues of
substance, so it declined to exclude any fees based on
the plaintiffs' claimed success. Importantly, it
reduced its prior award by carefully excluding fees
incurred before the plaintiffs filed the offending
pleading.
These determinations and calculations were well
within the district court's discretion and amply
explained. The attorneys' conduct warranted
Besides this narrow issue, the issues Appellants raise on
appeal are foreclosed.

1

App. 4

deterrence even as to Webb, whose suspension from
the practice of law lasts only eighteen months.2 To
ensure it awarded only the relevant, reasonable fees,
the district court thoroughly parsed the fee
submission.
We deny the request for attorney's fees on appeal
(Dkt. 19).
AFFIRMED.

We grant the request for judicial notice of Webb's notice of
suspension (Dkt. 8), the request for judicial notice of a sanctions
award against Stafne Law Firm (Dkt. 18), and the motion to file
a corrected answering brief (Dkt. 38).

2

*This publication is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App. 5

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 15-35675
No. 16-35220
CERVANTES ORCHARDS & VINEYARDS, LLC, a
Washington limited liability corporation; et al.,
Plaintiffs-Appellants,
v.
DEERE & COMPANY, a corporation; et al.,
Defendants-Appellees.
CERVANTES ORCHARDS & VINEYARDS, LLC, a
Washington limited liability corporation; et al.,
Plaintiffs-Appellants,
DEAN BROWNING WEBB and SCOTT ERIK
STAFNE,
Appellants,
v.
DEERE & COMPANY, a corporation; et al.,
Defendants-Appellees.

On Appeal from the United States District Court
Eastern District of Washington at Yakima
District Court No. 1:14-cv-03215-RMP
Before: Michael Daly Hawkins, Circuit Judge, M.
Margaret McKeown, Circuit Judge and Morgan B.
Christen, Circuit Judge
Filed: March 5, 2018

App. 6

ORDER
The panel votes to deny the Petition for Rehearing.
The full court has been advised of the Petition for
Rehearing and Rehearing En Banc and no judge has
requested a vote on whether to rehear the matter En
Banc. Fed. R. App. P. 35.
The Petition for Panel Rehearing and the Petition for
Rehearing En Banc are DENIED.

App. 7

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 15-35675
No. 16-35220
CERVANTES ORCHARDS & VINEYARDS, LLC, a
Washington limited liability corporation; et al.,
Plaintiffs-Appellants,
v.
DEERE & COMPANY, a corporation; et al.,
Defendants-Appellees.
CERVANTES ORCHARDS & VINEYARDS, LLC, a
Washington limited liability corporation; et al.,
Plaintiffs-Appellants,
DEAN BROWNING WEBB and SCOTT ERIK
STAFNE,
Appellants,
v.
DEERE & COMPANY, a corporation; et al.,
Defendants-Appellees.
On Appeal from the United States District Court
Eastern District of Washington at Yakima
District Court No. 1:14-cv-03215-RMP
Before: Michael Daly Hawkins, Circuit Judge, M.
Margaret McKeown, Circuit Judge and Morgan B.
Christen, Circuit Judge
Submitted: December 5,2017**
Filed: December 15, 2017

App. 8

MEMORANDUM*
Cervantes Orchards and Vineyards, along with
Cervantes Nurseries, Cervantes Packing & Storage,
Manchego Real, Jose G. Cervantes, and Cynthia
C. Cervantes, (collectively “Cervantes”),1 appeals
the district court’s dismissal of its RICO and civil
rights claims against Deere & Company, Deere
Credit,
John Deere Capital Corporation, John
Deere Financial, FKA FPC Financial, and Deere
Credit Services (“Deere”), American West Bank, T16 Management Company (“T-16”), Gary and Linda
Johnson (“the Johnsons”), Robert and Michelle
Wyles (“the Wyles”), Northwest Management &
Realty Services (“NWFM”), and SKBHC Holdings,
(collectively “defendants”). Dean Webb and Scott
Stafne appeal the district court’s order sanctioning
them under Federal Rule of Civil Procedure 11 and
assessing attorney’s fees. Because the parties are
familiar with the facts, we do not recite them here.
We have jurisdiction under 28 U.S.C. § 1291. We
affirm in part, vacate in part, and remand to the
district court for further findings.
1. Dismissal of RICO and civil rights claims
Cervantes argues that the district court erred in
dismissing its claims of racketeering, extortion, and
bankruptcy fraud in violation of the Racketeer
Influenced and Corrupt Organizations Act (“RICO”),
1

For simplicity’s sake, we refer to these collective entities in
the singular as “Cervantes.”

App. 9

and for civil rights violations based on
racial discrimination. See 18 U.S.C. §§ 1961,
1962; 42 U.S.C. §§ 1981, 1982, and 1985(3).
“We review de novo the district court’s decision to
grant [a] motion to dismiss under Federal Rule of
Civil Procedure 12(b)(6).” Manzarek v. St. Paul Fire
& Marine Ins. Co., 519 F.3d 1025, 1030 (9th Cir.
2008). We review for abuse of discretion a district
court’s decision to dismiss with prejudice. Okwu v.
McKim, 682 F.3d 841, 844 (9th Cir. 2012).
The district court did not err in dismissing
Cervantes’ extortion-based RICO claims. Cervantes
failed to allege specific facts to support its extortion
allegations. See Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009). The defendants did not acquire Cervantes’
property through fear, threatened force, or coercion,
but foreclosed after Cervantes missed payment
deadlines. See United Bhd. of Carpenters & Joiners
of Am. v. Bldg. & Const. Trades Dep’t, AFL-CIO,
770 F.3d 834, 838 (9th Cir. 2014) (“Courts must . . .
differentiate between legitimate use of economic
fear – hard bargaining – and wrongful use of such
fear – extortion.”). The defendants complied with a
bankruptcy plan that Cervantes itself proposed, and
provided forbearance opportunities to Cervantes
before foreclosing. 2
2

That the defendants informed Cervantes that it would face
“immediate problems,” if it did not pay its debts was not
extortion but a demand for lawful payment of an overdue
obligation. “Threats of economic harm made to obtain
property from another, are not generally considered
‘wrongful,’” as required to establish RICO liability, “where

App. 10

Nor did the district court err in
dismissing
Cervantes’ fraud-based RICO claims. RICO
predicate fraud claims must satisfy the heightened
pleading standards of Federal Rule of Civil
Procedure 9(b). See Moore v. Kayport Package Exp,
Inc., 885 F.2d 531, 541 (9th Cir. 1989). Cervantes
failed to allege specific facts that would support its
allegations that the defendants committed
bankruptcy fraud. Cervantes claimed that
defendant NWFM “filed a false sworn declaration in
the bankruptcy proceeding,” but Cervantes failed to
specify the contents of the declaration, or explain in
what way the declaration was false. Cervantes’
implausible theory that the defendants conspired to
conceal from the bankruptcy court a settlement
agreement that would have revealed a plan to
decrease the value of the defendants’ own collateral
was similarly unsupported by specifics.
The district court did not err in dismissing
Cervantes’ discrimination claims. Cervantes alleged
“no facts supporting [its] conclusion that the
[defendants’]
actions
were
driven
by
discrimination.” In “the face of [the defendants’]
obvious explanations for their actions in attempting
to collect payment from [Cervantes] for outstanding
debts,
[Cervantes]
offered
only
conclusory
allegations [of discrimination].”

the alleged extortioner has a legitimate claim to the
property obtained.” Levitt v. Yelp! Inc., 765 F.3d 1123, 1130
(9th Cir. 2014) (citation and internal quotation marks
omitted).

App. 11

2. Judicial bias
Cervantes’ claims of judicial bias are unavailing.
Cervantes fails to offer evidence that the district
judge’s
“impartiality
might
reasonably
be
questioned.” Pau v. Yosemite Park and Curry Co.,
928 F.2d 880, 884 (9th Cir. 1991). Cervantes also
failed to move for disqualification below. See E & J
Gallo Winery v. Gallo Cattle Co., 967 F.2d 1280,
1295 (9th Cir. 1992). Indeed, Cervantes appears to
rely entirely on the judge’s adverse rulings in
claiming bias, and we have held that judicial rulings
alone “almost never constitute valid basis for a bias
or partiality motion.” United States v. Hernandez,
109 F.3d 1450, 1454 (9th Cir. 1997) (citation
omitted).
3. Rule 11 sanctions
We review for abuse of discretion the district court’s
decision to impose Rule 11 sanctions. Cooter & Gell
v. Hartmarx Corp., 496 U.S. 384, 405 (1990). Rule 11
prohibits attorneys from filing complaints for “any
improper purpose, such as to harass, cause
unnecessary delay, or needlessly increase the cost of
litigation.” Fed. R. Civ. P. 11(b)(1). “The district court
is best acquainted with the local bar’s litigation
practices and thus best situated to determine when a
sanction is warranted to serve Rule 11’s goal of
specific and general deterrence.” Cooter, 496 U.S. at
404.
The district court did not abuse its discretion in
ordering sanctions “to deter [Webb and Stafne] from
again filing such a baseless lawsuit.” Webb and

App. 12

Stafne began this lawsuit in district court by filing a
337-page complaint asserting 60 claims for relief
against over 30 defendants. Webb and Stafne filed
nearly 1000 pages of complaint papers in total,
including a 143-page First Amended Complaint
accompanied by a 469-page RICO case statement.
The district court described the original complaint as
a “quagmire of wordy and repetitious verbiage.”
Webb and Stafne’s filings were “both baseless and
made without a reasonable and competent inquiry.”
Townsend v. Holman Consulting Corp., 929 F.2d
1358, 1362 (9th Cir. 1990) (en banc). Webb and
Stafne have been litigating on behalf of Cervantes
against the defendants for over a decade in the
bankruptcy and district courts, and in this litigation
have consistently failed to support their claims with
specific facts. The defendants have spent “hundreds
of thousands of dollars in legal fees” defending
against Webb and Stafne’s allegations. The Wyles
and Deere defendants complied with Rule 11’s safe
harbor requirements. And the district court notified
Webb and Stafne in December, 2014 that “they may
be held liable for unreasonably and vexatiously
multiplying the proceedings of this case.”
Webb and Stafne subsequently asserted claims in
their Second Amended Complaint that were plainly
barred by applicable statutes of limitations.3
Webb and Stafne claim that the district court abused
its discretion in limiting their Second Amended
We deny the Wyles’ request to sanction Webb and Stafne
again on appeal.
3

App. 13

Complaint to thirty pages, but fail to identify facts
that they would have alleged to support their
allegations had they been given more space.4 Even
in 30 pages, they should have been able to state the
key predicate facts to support their RICO claims, and
their prior prolix complaints lacked such facts. Webb
and Stafne were warned repeatedly that they could
face sanctions if they failed to allege specific facts to
support their claims, and they failed to furnish such
specifics in nearly 1000 pages of complaint papers.
4. Conduct beyond the Second Amended Complaint
and amount of fees
We review for abuse of discretion the district court’s
decision to award attorney’s fees as part of a Rule 11
sanction. Cooter, 496 U.S. at 405. “Generally, a
district court’s order on attorney’s fees may be set
aside if the court fails to state reasons for its
decision.” Mattel, Inc. v. Walking Mountain Prods.,
353 F.3d 792, 815 (9th Cir. 2003). And “Rule 11
sanctions are limited to ‘paper[s]’ signed in violation
of the rule. Conduct in depositions, discovery
meetings of counsel, oral representations at
hearings, and behavior in prior proceedings do not
fall within the ambit of Rule 11.” See Christian v.
Mattel, Inc., 286 F.3d 1118, 1131 (9th Cir. 2002).
Webb and Stafne’s argument that they were “not afforded due
process before the imposition of sanctions . . . itself borders on
the frivolous.” Buster v. Greisen, 104 F.3d 1186, 1190 (9th Cir.
1997). Webb and Stafne received “notice that the court [was]
considering sanctions and [had] an opportunity to be heard in
opposition.” Id. Due process required no more. Pan-Pacific and
Low Ball Cable Television Co. v. Pacific Union Co., 987 F.2d
594, 597 (9th Cir. 1993).

4

App. 14

Here, the district court failed to adequately explain
its reasons for awarding $18,744.00 to the Wyles
defendants, and $111,771.53 to the Deere
defendants. The record does not illuminate why
these amounts were appropriate; notably, the
sanctions award includes fees incurred prior to the
filing of the Second Amended Complaint, and
incurred for issues on which Cervantes prevailed.
Because the district court awarded fees that did not
result from the Second Amended Complaint and did
not explain why the sanction it awarded was “limited
to what suffices to deter” frivolous filings in the
future, Fed. R. Civ. P. 11(c)(4), we must vacate the
district court’s attorney’s fees award. Id. We remand
for further explanation regarding the basis, amount,
and reasonableness of the attorney’s fees.
AFFIRMED in part, VACATED in part, and
REMANDED. Each party shall bear its own costs
and fees on appeal.

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 15

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WASHINGTON
No. 1:14-CV-3125-RMP
CERVANTES ORCHARDS & VINEYARDS, LLC, a
Washington
limited
liability
corporation;
CERVANTES NURSERIES, LLC, a Washington
limited
liability
corporation;
CERVANTES
PACKING & STORAGE, LLC, a Washington limited
liability corporation; MANCHEGO REAL, LLC, a
Washington limited liability corporation; JOSE G.
CERVANTES and CYNTHIA C. CERVANTES,
individually, and upon behalf of their community
property marital estate;
Plaintiffs,
v.
DEERE & COMPANY, a corporation; DEERE
CREDIT, INC., a corporation; JOHN DEERE
CAPITAL CORPORATION, a corporation; JOHN
DEERE FINANCIAL FSB, a corporation formerly
known as FPC Financial; DEERE CREDIT
SERVICES, INC., a corporation; AMERICAN WEST
BANK, a corporation; SKBHC HOLDINGS, LLC, a
Washington limited liability corporation; T-16
MANAGEMENT
CO,
LTD,
a
Washington
corporation; GARY JOHNSON and LINDA
JOHNSON, individually and upon behalf of their
community
property
marital
estate;
NW
MANAGEMENT REALTY SERVICES, INC, a
Washington corporation also known as Northwest
Farm Management Company; and ROBERT WYLES
and MICHELLE WYLES, individually and upon
behalf of their community property marital estate,
Defendants.

App. 16

Before: ROSANNA MALOUF PETERSON
UnitedStates District Court Judge
Filed: February 26, 2016
ORDER GRANTING DEFENDANTS ROBERT AND
MICHELLE WYLES' RULE 11 MOTION FOR
REASONABLE ATTORNEY FEES AND COSTS
BEFORE THE COURT is Defendants Robert and
Michelle Wyles' (Wyles Defendants) Rule 11 Motion
for Reasonable Attorney Fees and Costs, ECF No.
142. The Court's prior orders discuss the facts of this
case, which will not be repeated in detail here. See
ECF Nos. 128, 132.
BACKGROUND
Plaintiffs constitute a farming group that grows
crops including apples, pears, grapes, and cherries.
See ECF No. 74 at 4. Plaintiffs asserted that
multiple Defendants engaged in a broad scheme of
misconduct involving racketeering, extortion, fraud,
and civil rights violations. See id. at 17-24. The
Court eventually dismissed all Defendants from this
action, concluding that Plaintiffs had failed to state a
claim in their Second Amended Complaint. See ECF
Nos. 128, 132. After Plaintiffs filed the Second
Amended Complaint, but prior to its dismissal,
Wyles Defendants served Plaintiffs' attorneys with a
request to dismiss the Wyles Defendants voluntarily
because they argued that Plaintiffs' claims lacked
any legitimate basis in law or fact. See ECF No. 143,
Ex. B. When Plaintiffs failed to do so, the Wyles
Defendants served Plaintiffs' counsel with notice

App. 17

that the Wyles would seek sanctions pursuant to
Federal Rule of Civil Procedure 11 if Plaintiffs did
not file a motion to dismiss the Wyles within 21 days
after service of the notice. See ECF No. 143, Ex. C.1
Plaintiffs did not move to dismiss the Wyles
voluntarily.
ANALYSIS
Federal Rule of Civil Procedure 11 provides that by
presenting a pleading to a court, an attorney
"certifies that to the best of the person's knowledge,
information, and belief, formed after an inquiry
reasonable under the circumstances[,]" the pleading
meets certain minimal standards. Fed. R. Civ. P.
11(b). Among other assurances, the attorney
certifies that the "legal contentions are warranted
by existing law or by a nonfrivolous argument" for
changing the law, and that "the factual
contentions have evidentiary support or, if
specifically so identified, will likely
have
evidentiary support after a reasonable opportunity
for further investigation or discovery . . . ." Fed. R.
Civ. P. 11(b)(2), (3).
The failure to comply with Rule 11 is sanctionable.
Fed. R. Civ. P. 11(c). After providing notice and the
opportunity to respond, a "court may impose an
appropriate sanction on any attorney, law firm, or
party that violated the rule or is responsible for the
violation."
Prior to filing this motion, Counsel for the Wyles Defendants
served two more follow up letters to Plaintiffs' counsel. See ECF
No. 143 Exs. D, E.

1

App. 18

Fed. R. Civ. P. 11(c)(1). Pursuant to Rule 11's "safe
harbor" provision, a party seeking Rule 11 sanctions
must serve a motion for sanctions on the offending
party and not file the motion "if the challenged
paper, claim, defense, contention, or denial is
withdrawn or appropriately corrected within 21
days after service or within another time the court
sets." Fed. R. Civ. P. 11(c)(2).
As explained in the Order Granting Robert and
Michelle Wyles' Motion to Dismiss, ECF No. 132,2
some of Plaintiffs' key legal contentions in the
Second Amended Complaint are not supported by
existing law and this Court dismissed Plaintiffs'
claims for failure to state a claim upon which relief
could be granted. See ECF No. 132. For example,
Plaintiffs alleged a pattern of racketeering activity
under 18 U.S.C. § 1962(c), but only alleged one
predicate RICO violation that potentially could be
seen as plausible. See ECF No. 132 at 1617. Additionally, even that one predicate offense did
not involve the Wyles Defendants. See id. at 12-13.
The Wyles Defendants provided Plaintiffs with
necessary notice of their intent to seek sanctions,
but Plaintiffs failed to voluntarily dismiss their
Second Amended Complaint that failed to meet the
standards of Rule 11.
Pursuant to Rule 11, the Court finds that an award
of the Wyles Defendants' reasonable attorney fees in
defending against this action is an appropriate
Additional motions were ruled upon in this Court Order and
the case was administratively closed. See ECF No. 132.

2

App. 19

sanction to deter Plaintiffs' counsel from filing such a
baseless lawsuit in the future. Therefore, the Court
will sanction Scott Stafne and Dean Browning Webb,
attorneys at the law firm of Stafne & Trumbull,
PLLC. See ECF No. 74 at 25-26.
Additionally, the Court has reviewed the Wyles'
defense counsel's arguments regarding the alleged
amount of attorney's fees, and finds it to be
reasonable. The Court will enter Judgment in favor
of Wyles Defendants in the amount of $18,744.00.
Accordingly, IT IS HEREBY ORDERED:
1. Defendants Robert and Michelle Wyles' Rule 11
Motion for Reasonable Attorney Fees and Costs,
ECF No. 142, is GRANTED.
2. The Clerk of the Court is directed to enter
judgment in favor of Robert Wyles and Michelle
Wyles, and against attorneys Scott Stafne and Dean
Browning Webb, jointly and severally, in the amount
of $18,744.00.
The District Court Clerk is directed to enter this
Order and provide copies of this Order and Judgment
to counsel.
DATED this 26th day of February 2016.
/s/ Rosanna Malouf Peterson
ROSANNA MALOUF PETERSON
United States District Court Judge

App. 20

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF
WASHINGTON
No. 1:14-CV-3125-RMP
CERVANTES ORCHARDS & VINEYARDS, LLC, a
Washington
limited
liability
corporation;
CERVANTES NURSERIES, LLC, a Washington
limited
liability
corporation;
CERVANTES
PACKING & STORAGE, LLC, a Washington limited
liability corporation; MANCHEGO REAL, LLC, a
Washington limited liability corporation; JOSE G.
CERVANTES and CYNTHIA C. CERVANTES,
individually, and upon behalf of their community
property marital estate;
Plaintiffs,
v.
DEERE & COMPANY, a corporation, et al.,
Defendants.
Before: ROSANNA MALOUF PETERSON,
Chief United States District Court Judge
Filed: August 12, 2015
ORDER GRANTING DEERE DEFENDANTS'
MOTION FOR SANCTIONS

App. 21

Before the Court is the Deere Defendants' Motion for
Sanctions, ECF No. 112.1 The Court's prior orders
discuss the facts of this case, which will not be
repeated in detail here. See ECF Nos. 128, 132.
BACKGROUND
Plaintiffs constitute a farming group that grows
crops including apples, pears, grapes, and cherries.
ECF No. 74 at 4. Plaintiffs assert that multiple
Defendants engaged in a broad scheme of misconduct
involving racketeering, extortion, fraud, and civil
rights violations. See ECF No. 74 at 17-24. The Court
dismissed all Defendants from this
action,
concluding that Plaintiffs had failed to state a claim
in their Second Amended Complaint. ECF Nos. 128,
132.
After Plaintiffs filed the Second Amended Complaint,
the Deere Defendants served Plaintiffs' attorneys
Scott Stafne, Brian Fisher, and Dean Browning
Webb with notice that the Deere Defendants would
seek sanctions against Plaintiffs' counsel and against
Plaintiffs themselves pursuant to Federal Rule of
Civil Procedure 11 if Plaintiffs did not file a motion
to dismiss the Deere Defendants within 21 days after
service of the notice. See ECF No. 119, Ex. 1.
Plaintiffs did not move to dismiss the Deere

1

The "Deere Defendants" are Deere & Company, Deere
Credit, Inc., John Deere Capital Corporation, John Deere
Financial, f.s.b. f/k/a FPC Financial, and Deere Credit
Services, Inc.

App. 22

Defendants voluntarily, and the Deere Defendants
filed the pending motion. See ECF No. 112.
ANALYSIS
Federal Rule of Civil Procedure 11 provides that by
presenting a pleading to a court, an attorney
"certifies that to the best of the person's knowledge,
information, and belief, formed after an inquiry
reasonable under the circumstances[,]" the pleading
meets certain minimal standards. See Fed. R. Civ. P.
11(b). Among other assurances, the attorney certifies
that "the legal contentions are warranted by existing
law or by a nonfrivolous argument" for changing the
law, and that "the factual contentions have
evidentiary support or, if specifically so identified,
will likely have evidentiary support after a
reasonable opportunity for further investigation or
discovery . . . ." Fed. R. Civ. P. 11 (b)(2),(3).
The failure to comply with Rule 11 is sanctionable.
Fed. R. Civ. P. 11(c). After providing notice and the
opportunity to respond, a "court may impose an
appropriate sanction on any attorney, law firm, or
party that violated the rule or is responsible for the
violation." Fed. R. Civ. P. 11(c)(1). Pursuant to Rule
11's "safe harbor" provision, a party seeking Rule 11
sanctions must serve a motion for sanctions on the
offending party and not file the motion "if the
challenged paper, claim, defense, contention, or
denial is withdrawn or appropriately corrected
within 21 days after service or within another time
the court sets." Fed. R. Civ. P. 11(c)(2).

App. 23

Here, it is undisputed that the Deere Defendants
provided Plaintiffs with the necessary notice, and the
Court finds that Plaintiffs' Second Amended
Complaint fails to meet the requirements of Rule 11.
As explained in the Order Granting Motion to
Dismiss Deere Defendants, some of Plaintiffs' key
legal contentions in the Second Amended Complaint
are not supported by existing law. See ECF No. 128.
For example, Plaintiffs claimed that the Deere
Defendants committed extortion by engaging in
discriminatory lending practices and intentionally
mismanaging Plaintiffs' property, which served as
collateral for obligations owed to one of the Deere
Defendants. ECF No. 74 at 19-20. However, the
Deere Defendants' alleged acts did not fit in the
context of extortion. See, e.g., ECF No. 128 at 15-16
("Plaintiffs' theory in regard to mismanagement of
the property makes no sense in the context of
extortion. The property already was part of the
bankruptcy estate, of which the Deere Defendants
were creditors."). Similarly, all of Plaintiffs' lending
discrimination claims are time barred, and Plaintiffs
did not present a nonfrivolous reason to modify the
law regarding the statutory bar. See ECF No. 128 at
22-24.
In addition, Plaintiffs failed to plead facts that would
support their claim that the Deere Defendants
played a significant role in a complex and
discriminatory enterprise that sought to deprive
Plaintiffs and other Hispanic farmers of their
property and business. Although Plaintiffs contended
that the Deere Defendants were willing to lose large
amounts of money to obtain Plaintiffs' property, they

App. 24

"alleged no facts supporting their conclusion that the
Deere Defendants' actions were driven by
discrimination." ECF No. 128 at 24. In the face of the
Deere Defendants' obvious explanations for their
actions in attempting to collect payment from
Plaintiffs for outstanding debts, Plaintiffs offered
only conclusory allegations rather than asserting
facts that reasonably would have evidentiary support
after further investigation.
Pursuant to Rule 11, the Court finds that an award
of the Deere Defendants' reasonable attorney fees in
defending against this action is an appropriate
sanction to deter Plaintiffs' counsel from again filing
such a baseless lawsuit. Although the Court may
sanction both counsel and parties themselves, the
courts finds that it is those attorneys who signed the
Second Amended Complaint who ultimately are
responsible for certifying that it meets the
requirements of Rule 11, and therefore the Court
only will sanction Scott Stafne, Dean Browning
Webb, and the law firm of Stafne & Trumbull, PLLC.
See ECF No. 74 at 25-26.
The Court will award fees after reviewing itemized
billing sheets, which the Deere Defendants shall
submit.
Accordingly, IT IS HEREBY ORDERED:
1. The Deere Defendants' Motion for Sanctions,
ECF No. 112, is GRANTED.

App. 25

2. On or before August 26, 2015, the Deere
Defendants shall submit itemized billing sheets for
claimed fees.
The District Court Clerk is directed to enter this
Order and provide copies to counsel.
DATED this 12th day of August 2015.
/s/ Rosanna Malouf Peterson
ROSANNA MALOUF PETERSON
Chief United States District Court Judge

App. 26

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WASHINGTON
No. 1:14-CV-3125-RMP
CERVANTES ORCHARDS & VINEYARDS, LLC, a
Washington
limited
liability
corporation;
CERVANTES NURSERIES, LLC, a Washington
limited
liability
corporation;
CERVANTES
PACKING & STORAGE, LLC, a Washington limited
liability corporation; MANCHEGO REAL, LLC, a
Washington limited liability corporation; JOSE G.
CERVANTES and CYNTHIA C. CERVANTES,
individually, and upon behalf of their community
property marital estate;
Plaintiffs,
v.
AMERICAN WEST BANK, a corporation; SKBHC
HOLDINGS, LLC, a Washington limited liability
corporation; T-16 MANAGEMENT CO, LTD, a
Washington corporation; GARY JOHNSON and
LINDA JOHNSON, individually and upon behalf of
their community property marital estate; NW
MANAGEMENT REALTY SERVICES, INC, a
Washington corporation also known as Northwest
Farm Management Company; and ROBERT WYLES
and MICHELLE WYLES, individually and upon
behalf of their community property marital estate,
Defendants.
Before: ROSANNA MALOUF PETERSON,
Chief United States District Court Judge

App. 27

Filed: July 17, 2015
ORDER REGARDING MOTIONS TO DISMISS
AND MOTIONS FOR SUMMARY JUDGMENT
Before the Court are motions to dismiss filed by
Defendants AmericanWest Bank ("AmericanWest")
and SKBHC Holdings, LLC ("SKBHC"), ECF No. 76,
and by Defendants Robert and Michelle Wyles, ECF
No. 79. Also before the Court are motions for
summary judgment filed by Defendants T-16
Management Co., Ltd. ("T-16") and Gary and Linda
Johnson, ECF No. 88, and by Defendant SKBHC
Holdings, LLC, ECF No. 122. The Court has
reviewed all of the documents filed in support of and
in opposition to these motions, including Plaintiffs'
supplemental authority, ECF No. 127.
BACKGROUND
Plaintiffs constitute a farming group that grows
crops including apples, pears, grapes, and cherries.
ECF No. 74 at 4. Plaintiffs assert that Defendants
engaged in a broad scheme of misconduct involving
racketeering, extortion, fraud, and civil rights
violations. See ECF No. 74 at 17-24. Plaintiffs claim
that the purpose of the scheme was to dispossess
them of their property and business. See ECF No. 74
at 17-18.
Plaintiffs
assert
that
in
October
2009,
AmericanWest, in its role in the scheme, refused to
accept a credit application that Plaintiffs had filed.
See ECF No. 74 at 14. AmericanWest also allegedly

App. 28

refused applications for credit that were filed by
similarly situated Hispanic farm owners, required
excessive collateral to secure loans, and demanded
immediate payment from Plaintiffs without a
rational justification. ECF No. 74 at 14-15. SKBHC
is alleged to have acted in concert and conspired with
AmericanWest in regard to these practices, which
Plaintiffs contend were predicated on racial and
ethnic prejudice. ECF No. 74 at 15.
Plaintiffs claim that Defendants' alleged scheme
forced Plaintiff Cervantes Orchards & Vineyards,
LLC ("COV") to file for bankruptcy. See ECF No. 74
at 2. A plan was adopted in COV's bankruptcy,
requiring COV to satisfy its debt to Deere Credit,
Inc. ("DCI") by December 31, 2009. 1 ECF Nos. 74 at
5. COV failed to repay DCI fully by the deadline, and
on January 8, 2010, DCI moved the bankruptcy court
for an order appointing a liquidating agent pursuant
to the terms of the bankruptcy plan. ECF No. 74 at
6-7. The bankruptcy court appointed T-16 as the
liquidating agent and ordered COV to turn over all
control of the orchards that constituted collateral for
the debt owed to DCI. See ECF No. 74 at 7-8.
Defendant Gary Johnson is a director of T-16. See
ECF No. 74, Ex. 1 at 2.
Plaintiffs contend that COV turned over control of
the orchards to T-16 on or before March 17, 2010.
ECF No. 74 at 8. According to the Second Amended
DCI, Deere & Company, John Deere Capital Corporation,
John Deere Financial, f.s.b. f/k/a FPC Financial, and Deere
Credit Services, Inc. (collectively, the "Deere Defendants"), were
dismissed in a prior order. ECF No. 128.

1

App. 29

Complaint, no farming activities or operations took
place on the orchards for over a week after T-16 took
over, despite Plaintiff Jose Cervantes's warnings
that the orchards required frost protection. ECF No.
74 at 8. Plaintiffs assert that the failure to provide
the necessary protection resulted in damage to the
orchards. ECF No. 74 at 8.
With DCI's approval, T-16 hired Northwest
Management and Realty Services, Inc., a.k.a
Northwest Farm Management ("NWFM"), to manage
the property. ECF No. 74 at 8. Mr. Wyles was a
partial owner of NWFM. See ECF Nos. 74, Ex. 1 at 2;
95 at 2.
Plaintiffs claim that items of their personal property,
smudge pots, were wrongfully transported from the
orchards "by persons believed to be employed by
NWFM" to farm land that Mr. Wyles owned and
operated. ECF No. 74 at 9. Plaintiffs further contend
that Scott Anderson, another associate of NWFM,
filed a false declaration in bankruptcy court. See
ECF No. 74 at 10. The false declaration allegedly
convinced the bankruptcy court to prohibit Mr.
Cervantes from entering the orchards, which in turn
resulted in a number of injuries to Plaintiffs,
including that workers and supplies were diverted
from COV's land to other land managed by NWFM.
See ECF No. 74 at 10-11.
Plaintiffs also assert that multiple Defendants
sought to conceal from COV and from the bankruptcy
court a settlement agreement that concerned damage
to apples that a buyer had acquired at an apple
orchard auction in June 2010. ECF No. 74 at 13. The

App. 30

buyer, according to Plaintiffs' allegations, claimed
that the apples were damaged because of the failure
to use proper sprays. ECF No. 74 at 13. Plaintiffs
assert that NWFM, T-16, Mr. Wyles, and Mr.
Anderson were parties to the agreement. ECF No. 74
at 13. The settlement agreement included a
confidentiality provision, which Plaintiffs contend
was meant to conceal from the bankruptcy court and
from Plaintiffs the sale of a particular block of
property. ECF No. 74 at 13.
Plaintiffs further allege in the Second Amended
Complaint that AmericanWest sold Plaintiffs'
property "for greatly diminished prices[,]" ECF No.
74 at 3, which Plaintiffs argue were the result of the
other Defendants' efforts to devalue the property,
ECF No. 85 at 15.
In the first and second claims of the
Second
Amended Complaint, Plaintiffs allege that NWFM,
T-16, Mr. Johnson, Mr. Wyles and AmericanWest
violated provisions of the Racketeer Influenced and
Corrupt Organizations Act ("RICO") found at 18
U.S.C. § 1962(c), (d). ECF No. 74 at 17, 21. Plaintiffs
also claim that AmericanWest and SKBHC
committed civil rights violations, which Plaintiffs
pursue under 42 U.S.C. §§ 1981, 1982, 1985(3), and
1986. ECF No. 74 at 23-24.
ANALYSIS
As noted at the beginning of this Order, two motions
to dismiss and two motions for summary judgment
currently are pending in this matter. For the reasons
discussed below, the Court finds that Plaintiffs have
failed to state claims upon which relief can be

App. 31

granted against all remaining Defendants. Thus, the
Court reviews the Second Amended Complaint under
the standard of a motion to dismiss.
Motion to Dismiss Standard
The Federal Rules of Civil Procedure allow for the
dismissal of a complaint where the plaintiff fails to
state a claim upon which relief can be granted. Fed.
R. Civ. P. 12(b)(6). A motion to dismiss brought
pursuant to this rule "tests the legal sufficiency of a
claim." Navarro v. Block, 250 F.3d 729, 732 (9th Cir.
2001). The Supreme Court has offered the following
method for assessing the sufficiency of a complaint:
[A] court considering a motion to dismiss can choose
to begin by
[A] court considering a motion to dismiss
can choose to begin by identifying
pleadings that, because they are no more
than conclusions, are not entitled to the
assumption of truth. While legal
conclusions can provide the framework of
a complaint, they must be supported by
factual allegations. When there are wellpleaded factual allegations, a court
should assume their veracity and then
determine whether they plausibly give
rise to an entitlement to relief.
Ashcroft v. Iqbal, 556 U.S. 662, 679, 129 S. Ct. 1937,
173 L. Ed. 2d 868 (2009).

App. 32

To withstand dismissal, a complaint must contain
"enough facts to state a claim to relief that is
plausible on its face." Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570, 127 S. Ct. 1955, 167 L. Ed. 2d
929(2007). "A claim has facial plausibility when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged." Iqbal, 556 U.S.
at 678. A plaintiff is not required to establish a
probability of success on the merits; however, he or
she must demonstrate "more than a sheer possibility
that a defendant has acted unlawfully." Id. (citing
Twombly, 550 U.S. at 556).
1. Michelle Wyles and Linda Johnson
As an initial matter, Plaintiffs do not appear to
assert that Defendants Michelle Wyles or Linda
Johnson committed any wrongdoing. In regard to
Ms. Wyles, Plaintiffs admit that they included her in
this action because Mr. Wyles's alleged misconduct
was on behalf of the couple's community property.
ECF No. 87 at 1 n.1. "Therefore, Michelle Wyles is
included as a defendant for purposes . . . affecting
relief only." ECF No. 87 at 1 n.1. Plaintiffs
apparently named Ms. Johnson as a defendant for
the same reason. See ECF No. 74 (Second Amended
Complaint listing Ms. Johnson only in caption and
introductory paragraph).
"Under Washington law a personal judgment against
a married man is presumed to be against the
community." United States v. Overman, 424 F.2d
1142, 1148 (9th Cir. 1970). Thus, a defendant's
spouse need not be named in an action in order to

App. 33

obtain a judgment against the marital community.
See La Framboise v. Schmidt, 42 Wn.2d 198, 200,
254 P.2d 485 (1953).
Here, because Plaintiffs do not claim that Ms. Wyles
or Ms. Johnson committed any misconduct, the Court
finds that it is appropriate to dismiss them from this
action on that basis.
2. RICO
Plaintiffs claim that NWFM, T-16, Mr. Johnson, Mr.
Wyles and AmericanWest (collectively, "RICO
Defendants") violated RICO provisions found at 18
U.S.C. § 1962(c), (d). ECF No. 74 at 17-22.
Subsection (c) prohibits any person associated with
an enterprise that conducts interstate commerce
from participating in the enterprise's affairs through
a "pattern of racketeering activity" or collection of
unlawful debt. 18 U.S.C. § 1962(c). Subsection (d)
proscribes the conspiracy to violate subsection (c). 18
U.S.C. § 1962(d).
"Racketeering activity" includes any act that is
indictable under the Hobbs Act, 18 U.S.C. § 1951,
and a number of specified acts that are "chargeable
under State law and punishable by imprisonment for
more than one year." 18 U.S.C. § 1961(1)(A), (B); see
also United Bhd. of Carpenters & Joiners of Am. v.
Bldg. & Constr. Trades Dep't, 770 F.3d 834, 837 (9th
Cir. 2014). A plaintiff must allege at least two
predicate racketeering acts to state a "pattern" of
racketeering that would establish a RICO violation.
18 U.S.C. § 1961(5); Turner v. Cook, 362 F.3d 1219,

App. 34

1229 (9th Cir. 2004). "A 'pattern' of racketeering
activity also requires proof that the racketeering
predicates are related and 'that they amount to or
pose a threat of continued criminal activity.'" Turner,
362 F.3d at 1229 (quoting H.J. Inc. v. Northwestern
Bell Tel. Co., 492 U.S. 229, 239, 109 S. Ct. 2893, 106
L. Ed. 2d 195 (1989)).
Here, Plaintiffs allege that some or all of the RICO
Defendants committed extortion, bankruptcy fraud,
and mail and wire fraud, all of which are predicate
racketeering acts. See ECF No. 74 at 19-20; 18
U.S.C. § 1961(1) (identifying extortion, "any offense
involving fraud connected with a [bankruptcy]
case[,]" and mail and wire fraud as predicate RICO
acts). The Court considers whether Plaintiffs
sufficiently have pleaded any of the alleged RICO
predicate acts.
a. Extortion
Plaintiffs allege that the RICO Defendants
committed acts of extortion under the Hobbs Act and
state law by conspiring to obtain and in fact
obtaining Plaintiffs' real property "with Plaintiffs'
consent, induced by the wrongful use of fear of
economic harm . . . ." ECF No. 74 at 19-20.
The Hobbs Act defines extortion as "the obtaining of
property from another, with his consent, induced by
wrongful use of actual or threatened force, violence,
or fear, or under color of official right." 18 U.S.C. §

App. 35

1951(b)(2).2
"Fear," in this context, "can include
fear of economic loss." United Bhd. of Carpenters,
770 F.3d at 838. However, because fear of economic
loss also plays a lawful role in business transactions,
courts must "differentiate between legitimate use of
economic fear-hard bargaining-and wrongful use of
such fear-extortion." Id. Although it can be difficult
to distinguish hard bargaining from extortion, the
Ninth Circuit has relied on a Supreme Court holding
"that a defendant violates the Hobbs Act only 'where
the obtaining of the property would itself be
"wrongful" because the alleged extortionist has no
lawful claim to that property.'" Id. (quoting United
States v. Enmons, 410 U.S. 396, 400, 93 S. Ct. 1007,
35 L. Ed. 2d 379 (1973)).
The primary Defendants responsible for the alleged
extortion were DCI and its related entities. As the
Court found in a prior order, however, Plaintiffs
failed to plead sufficiently that DCI or the related
entities committed extortion. ECF No. 128 at 13-16.
Plaintiffs failed to allege facts to support their claim
that DCI used fear to induce Plaintiffs to enter into
the original business relationship with DCI or that
2

Washington State law provides that "'[e]xtortion' means
knowingly to obtain or attempt to obtain by threat property or
services of the owner . . . ." RCW 9A.56.110. Although
Plaintiffs listed both state and federal law in the section of
the Second Amended Complaint regarding extortion,
Plaintiffs discuss only the federal definition in their briefing
and do not contend that federal and state extortion laws differ
materially. See, e.g., ECF No. 87 at 10-12. Accordingly, the
Court considers the federal definition of the term.

App. 36

fear was a tool that DCI later employed when it
allegedly attempted to obtain Plaintiffs' property in
the course of bankruptcy.
Here, for the same reasons discussed in the order
regarding DCI, Plaintiff's more tangential theory of
extortion against the RICO Defendants who
managed the orchards also lacks merit. Even
assuming that these Defendants intentionally
mismanaged the orchards, it is undisputed that T-16
and NWFM (and, in turn, Mr. Johnson and Mr.
Wyles as officers of those entities) had lawful
authority to operate the property because of the
bankruptcy court's appointment order. In other
words, the facts as alleged by Plaintiffs are
inconsistent with the theory that these Defendants
somehow used force or fear to coerce Plaintiffs to
part with their property.
Plaintiffs' assertion that AmericanWest committed
extortion also is pleaded insufficiently. Plaintiffs
argue that AmericanWest participated in the
enterprise so that it and DCI could sell the orchards
to friends and customers for greatly reduced prices.
ECF No. 85 at 15. Plaintiffs also aver that
AmericanWest's allegedly discriminatory denial of
Plaintiffs' credit applications and excessive collateral
requirements support their allegation of extortion.
ECF No. 85 at 15-16. However, Plaintiffs do not
explain how AmericanWest allegedly used economic
fear to induce Plaintiffs to give up their property or
how AmericanWest's allegedly discriminatory
lending practice would have such a result.

App. 37

The Court finds that Plaintiffs have failed to state
sufficient facts to support their theory that the RICO
Defendants committed predicate acts of extortion.
b. Fraud
Plaintiffs also contend that the RICO Defendants
committed predicate RICO acts of bankruptcy fraud
in violation of 18 U.S.C. §§ 152 and 153. ECF No. 74
at 20. Section 152 prohibits, among other acts,
knowingly and fraudulently concealing property of a
bankruptcy estate and knowingly and fraudulently
making a false declaration in or in relation to a
bankruptcy case. 18 U.S.C. § 152(1),(3). Section 153
prohibits certain persons with access to bankruptcy
estate property or documents from knowingly and
fraudulently appropriating or embezzling the estate's
property. 18 U.S.C. § 153. Section 153 applies to "one
who has access to property or documents belonging
to an estate by virtue of the person's participation in
the administration of the estate[,]" such as the
employee of a trustee or custodian. See 18 U.S.C. §
153(b).
Like other fraud claims, RICO predicate acts of fraud
must meet the heightened pleading requirement
found in Federal Rule of Civil Procedure 9(b). See,
e.g., Schreiber Distrib. Co. v. Serv-Well Furniture
Co., 806 F.2d 1393, 1400-01 (9th Cir. 1986). "Rule
9(b) requires that the pleader state the time, place,
and specific content of the false representations as
well as the identities of the parties to the
misrepresentation." Moore v. Kayport Package Exp.,
Inc., 885 F.2d 531, 541 (9th Cir. 1989). The

App. 38

heightened pleading requirement "serves the
federal rule's purpose by apprising the defendant or
defendants of the nature of the claim and the acts
or statements or failures to disclose relied upon by
the plaintiff as constituting the fraud being charged
against each of them." 5A Charles Alan Wright et
al., Federal Practice and Procedure § 1297 (3d ed.).
After carefully reviewing the Second Amended
Complaint, the Court finds that all but one of
Plaintiffs' alleged incidents of fraudulent conduct
lack sufficient particularity. The Court considers
below each of the alleged RICO predicate acts of
fraud.
i. T-16's Failure to Protect Orchards from Frost
Plaintiffs claim that, for over a week after COV
turned over control of the orchards to T-16, no
farming activities took place "despite the fact that
Plaintiff Jose Cervantes warned T-16 repeatedly of
the need for frost protection." ECF No. 74 at 8.
Assuming the veracity of Plaintiffs' assertions, the
Court finds that Plaintiffs allege facts that arguably
support a RICO predicate act of bankruptcy fraud.
Plaintiffs allege that T-16 purposefully failed to care
for the property during the first week that it was in
T-16's care, with the intention of lowering the
property's value so that it could be acquired by other
members of the alleged enterprise. See ECF No. 74
at 8-9, 11. In other words, Plaintiffs' description
sufficiently alleges fraud because it is "accompanied
by 'the who, what, when, where, and how' of the

App. 39

misconduct charged." Vess v. Ciba-Geigy Corp. USA,
317 F.3d 1097, 1106 (9th Cir. 2003) (quoting Cooper
v. Pickett, 137 F.3d 616, 627 (9th Cir. 1997))
(internal quotation marks omitted).
Thus, Plaintiffs arguably have alleged one predicate
RICO act.
ii. Removal of Smudge Pots
Plaintiffs further allege that "persons believed to be
employed by NWFM" stole truckloads of smudge pots
from the orchards and transported them to property
owned by Mr. Wyles and Mr. Anderson. ECF No. 74
at 9.
Unlike the assertion that T-16 committed fraud by
intentionally neglecting the orchards, Plaintiffs do
not provide sufficient specificity regarding the
allegation that NWFM stole smudge pots from COV.
The Court notes that failing to identify the
individuals who allegedly took the property is not
alone a basis for concluding that Plaintiffs do not
meet heightened pleading requirements. See Charles
Alan Wright et al., supra, at § 1298 ("[Rule 9(b)] does
not require absolute particularity or a recital of the
evidence, especially when some matters are beyond
the knowledge of the pleader and can only be
developed through discovery."). However, Plaintiffs
fail to plead when the smudge pots were stolen or
what facts support their belief that NWFM employed
the persons who took the property. The Court finds
that such information is necessary to apprise the
RICO Defendants of the claims brought against

App. 40

them. Cf. Perkumpulan Investor Crisis Ctr. DresselWBG v. Regal Fin. Bancorp, Inc., 781 F. Supp. 2d
1098, 1112 (W.D. Wash. 2011)
(RICO predicate
act of wire fraud pleaded with sufficient particularity
where plaintiffs pleaded date, amount, transferor,
and recipient of allegedly fraudulent transfers).
iii. False Declaration
Plaintiffs also claim that the submission of a false
declaration by NWFM's co-owner, Mr. Anderson,
constitutes a predicate act. ECF No. 74 at 10. The
Second Amended Complaint states that the
declaration caused the bankruptcy court to prohibit
Mr. Cervantes from entering the orchards. See ECF
No. 74 at 10.
The contents of the declaration, however, are not
alleged. This does not comply with Rule 9(b)'s
heightened pleading requirements. See Edwards v.
Marin Park, Inc., 356 F.3d 1058, 1066 (9th Cir. 2004)
(dismissing RICO claim because although plaintiff
named the parties involved and alleged the time and
place that purportedly fraudulent legal notices were
delivered, complaint failed to allege notices' specific
contents, and plaintiff failed to attach notices to her
complaint or to any other filing).
iv. Various Damage to Orchards
Plaintiffs allege additionally that "T-16, NWFM,
Anderson, and Wyles, aided and abetted by Deere
Credit, Inc.[,]" embezzled property from the
bankruptcy estate, charged COV expenses for labor

App. 41

and equipment that were used on other property,
and applied minimal labor and resources to the
estate property. See ECF No. 74 at 10-11.
However, "Rule 9(b) does not allow a complaint to
merely lump multiple defendants together but
'require[s] plaintiffs to differentiate their allegations
when suing more than one defendant . . . and inform
each defendant separately of the allegations
surrounding his alleged participation in the fraud."
Swartz v. KPMG LLP, 476 F.3d 756, 764-65 (9th Cir.
2007) (quoting Haskin v. R.J. Reynolds Tobacco Co.,
995 F. Supp. 1437, 1439 (M.D. Fla. 1998)).
The Court finds that Plaintiffs impermissibly alleged
that multiple RICO Defendants committed a variety
of predicate acts. Without specification of which
defendants committed which allegedly fraudulent
acts, the RICO Defendants are not able to defend
themselves properly. See Destfino v. Reiswig, 630
F.3d 952, 958-59 (9th Cir. 2011) (affirming dismissal
because plaintiff failed to allege which defendants
were accused of each fraudulent statement or act). It
seems that rather than investigating these alleged
acts before filing suit, Plaintiffs have elected to wait
until later in the progress of this case to attribute
acts to specific RICO Defendants. Such a strategy is
not allowed under Rule 9(b). See Charles Alan
Wright et al., supra, at § 1296 ("[A] heightened
pleading requirement imparts a note of seriousness
and encourages a greater degree of pre-institution
investigation by the plaintiff.")
v. Concealment of Settlement Agreement

App. 42

Plaintiffs also claim that "Deere Credit, Inc., NWFM,
Anderson, Wyles, and T-16" committed bankruptcy
fraud by seeking to conceal from the bankruptcy
court a settlement agreement that would have
revealed the sale of the property as well as the true
extent of the damage to the collateral property. See
ECF Nos. 74 at 13; 87 at 13.
Again, similar to the allegations of damage to the
orchards, Plaintiffs incorrectly lump the RICO
Defendants together instead of specifying how each
defendant contributed to the alleged fraud.
Additionally, to the extent that Plaintiffs rely on the
existence of a confidentiality provision in the alleged
settlement agreement to assert that the named
defendants intended to conceal the agreement from
the bankruptcy court, the proposition is not
plausible. The Court takes judicial notice of the fact
that settlement agreements commonly
include
confidentiality provisions.3
In sum, Plaintiffs have alleged at most one predicate
RICO act of fraud, which is insufficient to plead a
substantive RICO violation under 18 U.S.C. §
1962(c). See 18 U.S.C. §
1961(5)
"'pattern
of
racketeering activity' requires at least two acts of
Plaintiffs' mail and wire fraud claims apparently are based on
the same substantive factual assertions as the alleged
bankruptcy fraud. See ECF No. 74 at 20; see also, e.g., ECF No.
87 at 13 (". . . Plaintiffs will seek to offer proof that mailings
and/or wirings were made to demand a copy of the [settlement]
agreement"). The mail and wire fraud claims fail for the same
reasons discussed above in regard to the alleged bankruptcy
fraud.

3

App. 43

racketeering activity").4
Because Plaintiffs have
not stated a substantive RICO claim, their RICO
conspiracy claim fails as well. See Religious Tech.
Ctr. v. Wollersheim, 971 F.2d 364, 367 n.8 (9th Cir.
1992) ("Because we find that [plaintiff] has failed to
allege the requisite substantive elements of RICO,
the conspiracy cause of action cannot stand.").5
3. Lending Discrimination
Plaintiffs contend that AmericanWest and SKBHC
violated Plaintiffs' civil rights. ECF No. 74 at 23-24.
AmericanWest and SKBHC argue that these claims
should be dismissed because they are barred by
statutes of limitations. ECF No. 76 at 2. Plaintiffs
assert
discrimination
claims pursuant to 42
U.S.C. §§ 1981, 1982, 1985(3), and 1986. ECF
No. 74 at 22-23. The parties do not dispute that a
four-year statute of limitations governs Plaintiffs'
claim brought under § 1981. See Jones v. R.R.
Moreover, as discussed below, the Court finds that the Second
Amended Complaint as a whole lacks plausibility.

4

5

In opposition to the Wyles' motion to dismiss, Plaintiffs refer
to their allegation that NWFM lacked necessary farm labor
licensing and that T-16 and DCI were aware of that fact. ECF
No. 87 at 5. Plaintiffs contend that this supports the "'conduct'
element of the civil racketeering claim" against Mr. Wyles,
who was a partial owner of NWFM. See ECF No. 87 at 5.
However, it is unclear whether Plaintiffs assert that NWFM's
alleged failure to obtain proper licensing and T-16's knowledge
of that fact constitute fraud or some other predicate act.
Plaintiffs have not pleaded sufficient facts for the Court to
discern how this alleged conduct could constitute racketeering.

App. 44

Donnelley & Sons Co., 541 U.S. 369, 383-85, 124 S.
Ct. 1836, 158 L. Ed. 2d 645 (2004) (discussing 28
U.S.C. § 1658).6
Washington's three-year statute of limitations for
personal injury actions, RCW 4.16.080(2), governs
claims brought pursuant to 42 U.S.C. § 1985(3). See
6

Section 1658's four-year statute of limitations applies to
actions brought under federal statutes that were enacted after
December 1, 1990. Jones, 541 U.S. at 371. In Jones, the Court
explained that § 1658 applies to claims that were made
possible by an amendment to § 1981 that occurred after
December 1, 1990. Id. at 383. Racial harassment in
employment is an example of a § 1981 claim that was not
possible under the pre-1990 version of the section. See id.
Some § 1981 claims, however, instead remain subject to the
most analogous statute of limitations under state law. See,
e.g., Lukovsky v. City & County of San Francisco, 535 F.3d
1044, 1048 n.2 (9th Cir. 2008) (applying forum state's statute
of limitations to failure-to-hire claim, which was cognizable
under pre-1990 version of § 1981). The applicable statute of
limitations under Washington State law would be the three
year limitation for a lawsuit alleging personal injury, RCW
4.16.080(2). See Beauregard v. Lewis Cnty., Wash., No.
C05-5738-RJB, 2006 U.S. Dist. LEXIS 73840, 2006 WL
2924612, at *8 (W.D. Wash. Oct. 10, 2006) (citing Taylor v.
Regents of Univ. of Cal., 993 F.2d 710, 711-12 (9th Cir. 1993)).
The parties do not address whether Plaintiffs' § 1981 claim
would have been cognizable under the pre-1990 version of the
law. However, because the parties do not dispute that the
federal four-year statute of limitations applies and because the
issue does not affect the Court's decision, the Court assumes,
for purposes of this motion, that the longer statute of
limitations is applicable.

App. 45

Taylor v. Regents of Univ. of Cal., 993 F.2d 710, 711
(9th Cir. 1993) (per curiam) (applying California's
analogous statute of limitations). The same rule
controls § 1982 claims. See Mitchell v. Sung, 816 F.
Supp. 597, 600 (N.D. Cal. 1993) ("Because section
1982 does not have a statute of limitations, courts
apply the applicable state statute of limitations."). A
one-year statute of limitations applies to claims
under § 1986. 42 U.S.C. § 1986.
Although the relevant state statute of limitations
applies to some of Plaintiffs' civil rights claims,
federal law determines when a civil rights claim
accrues. See Olsen v. Idaho State Bd. of Med., 363
F.3d 916, 926 (9th Cir. 2004) (citing Morales v. City
of Los Angeles, 214 F.3d 1151, 1153-54 (9th Cir.
2000)). Federal law provides that "a claim accrues
when the plaintiff knows or has reason to know of
the injury which is the basis of the action."
Two Rivers v. Lewis, 174 F.3d 987, 991 (9th Cir.
1999). Accrual begins on the date on which a plaintiff
becomes aware of an adverse action, not when a
plaintiff suspects that a legal wrong has been
committed. Lukovsky v. City & County of San
Francisco, 535 F.3d 1044, 1049-50 (9th Cir. 2008).
Here, AmericanWest and SKBHC assert that the
only discriminatory act that they allegedly
committed was denying Plaintiffs' credit application
in October 2009. ECF No. 76 at 3; see also ECF No.
74 at 14. Plaintiffs did not file their original
complaint until more than four years later, on
September 2, 2014. See ECF No. 1. In response,
Plaintiffs argue that they are no less injured today
"because they know if they applied for credit it would

App. 46

be declined as a result of defendants' ongoing
practices." ECF No. 85 at 6. In other words, Plaintiffs
contend that they have raised "allegations of
continuing discriminatory lending[,]" referring to
Havens Realty Corp. v. Coleman, 455 U.S. 363, 102
S. Ct. 1114, 71 L. Ed. 2d 214 (1982). See ECF No. 85
at 7.
In Havens Realty, the Court considered an alleged
continuing violation of the Fair Housing Act. 455
U.S. at 380. All of the incidents of alleged misconduct
against one plaintiff in Havens Realty were timebarred, but another plaintiff alleged that a Fair
Housing Act violation occurred within the 180-day
time limit. Id. at 380. The Court held "that where a
plaintiff, pursuant to the Fair Housing Act,
challenges not just one incident of conduct violative
of the Act, but an unlawful practice that continues
into the limitations period, the complaint is timely
when it is filed within 180 days of the last asserted
occurrence of that practice." See id. at 380-81
(footnote omitted). In other words, "because [one]
incident fell within the limitations period, none of
the claims was barred." See id. at 380.
Here, unlike in Havens Realty, Plaintiffs refer to no
incidents of alleged misconduct that occurred within
four years of the date on which they filed their
original complaint. Thus, Plaintiffs cannot rely on a
theory of continuing discrimination to circumvent
the applicable statutes of limitation, which bar their
civil rights claims.

App. 47

In sum, the Court finds that Plaintiffs have failed to
state an actionable claim that AmericanWest or
SKBHC violated their civil rights.
4. Plausibility
Having explained in detail why Plaintiffs' allegations
in the Second Amended Complaint fails to state a
claim, the Court finds that it is necessary also to note
an alternative and troubling basis for dismissing this
action.
Although Plaintiffs assert that Defendants were
motivated by racial and ethnic animosity to deprive
Plaintiffs of their land and livelihood, a serious
contention, the factual allegations supporting such
an egregious goal are surprisingly paltry. The most
direct allegation concerning discrimination was
brought against former Defendant Northwest Farm
Credit Services, whose employee allegedly responded
to Mr. Cervantes's inquiry about the denial of a loan
application with the statement: "You people don't
pay." See ECF No. 74 at 16. However, Northwest
Farm Credit Services was not included in Plaintiffs'
RICO claims. See ECF No. 74 at 17, 21.
Against the RICO Defendants, Plaintiffs offer only
conclusory statements that prejudice guided their
actions. See, e.g., ECF No. 74 at 5 ("[T]his enterprise
worked together to exact excessive terms and
conditions upon the Plaintiffs and other Hispanic
farming operators by failing to release collateral
demanded to secure repayment of loans and credit
lines . . . ."), 19 ("[T]he course of conduct engaged in

App. 48

by said RICO defendants was designed to deprive
Plaintiffs and similarly situated farming operators
and owners who are of Hispanic origin of their
interests in business and/or property.").
The Court does not imply that allegations of racial
discrimination are necessary for Plaintiffs to bring a
RICO action. However, in the absence of factual
allegations to support Plaintiffs' claims of
discriminatory intent, or any other basis for
believing that Defendants' actions were the result of
a coordinated attempt to obtain Plaintiffs' property
and business, Plaintiffs' RICO claim simply is
implausible. The Court repeats the reasoning
adopted in its order dismissing the Deere
Defendants, who appear to be the principal actors in
Plaintiffs' alleged RICO enterprise:
In response to this lawsuit, the Deere
Defendants have proffered that after COV
failed to repay its debt in accordance with
the bankruptcy plan, the Deere Defendants
sought appointment of a liquidating agent,
which the bankruptcy court approved. "As
between
that
'obvious
alternative
explanation' for [the Deere Defendants'
actions] and the purposeful, invidious
discrimination [that Plaintiffs ask the
Court] to infer, discrimination is not a
plausible conclusion."
ECF No. 128 at 24 (quoting Iqbal, 556 U.S. at 682
(internal citation omitted)).

App. 49

While the complex RICO scheme asserted in
Plaintiffs' Second Amended Complaint is of course
possible, it is not plausible. "Where a complaint
pleads facts that are 'merely consistent with' a
defendant's liability, it 'stops short of the line
between possibility and plausibility of 'entitlement to
relief.'" Iqbal, 556 U.S. at 678 (quoting Twombly, 550
U.S. at 557). The Court finds that Plaintiffs'
allegation of a broad, discriminatory scheme is
implausible.
5. Dismissal with Prejudice
Leave to amend a complaint should be granted freely
when justice so requires. Fed. R. Civ. P. 15(a).
However, "liberality in granting leave to amend is
subject to several limitations." Ascon Properties, Inc.
v. Mobil Oil Co., 866 F.2d 1149, 1160 (9th Cir. 1989)
(citing DCD Programs, Ltd. v. Leighton, 833 F.2d
183, 186 (9th Cir. 1987)). "Leave need not be granted
where the amendment of the complaint would cause
the opposing party undue prejudice, is sought in bad
faith, constitutes an exercise in futility, or creates
undue delay." Id. Additionally, "[t]he district court's
discretion to deny leave to amend is particularly
broad where plaintiff has previously amended the
complaint." Id.
Plaintiffs' original complaint spanned 337 pages,
divided into 737 paragraphs. ECF No. 1. The First
Amended Complaint, comprising 143 pages, was
accompanied by a 469-page RICO Case Statement.
ECF Nos. 29, 29-1. In addition to their unusual

App. 50

length, Plaintiffs' first two pleadings were difficult to
comprehend.
The Court ordered Plaintiffs to file a Second
Amended Complaint, with a set page limit. ECF No.
72. The Second Amended Complaint presented a
clearer picture of Plaintiffs' claims. However, after
significant expenditure of resources by the Court
and, presumably, by Defendants, the Court has
determined that those claims fail as a matter of law.
For the reasons discussed throughout this Order, the
Court finds that allowing Plaintiffs to amend their
claims would be futile and would cause undue
prejudice to Defendants. The Court dismisses
Plaintiffs’ Second Amended Complaint with
prejudice.
6. Attorney Fees
The Wyles request attorney fees and costs for the
expense of defending against this lawsuit. ECF No.
79 at 12. "[The Court's] basic point of reference when
considering the award of attorney's fees is the
bedrock principle known as the American Rule: Each
litigant pays his own attorney's fees, win or lose,
unless a statute or contract provides otherwise."
Hardt v. Reliance Standard Life Ins. Co., 560 U.S.
242, 252-253, 130 S. Ct. 2149, 176 L. Ed. 2d 998
(2010) (internal quotation marks omitted).
The Wyles' request for attorney fees and costs is
unaccompanied by any reference to the applicable
authority for imposing such a sanction. The Court
denies the Wyles' request at this time, but the Court

App. 51

will entertain motions for sanctions that include a
discussion of relevant authority.
Accordingly, IT IS HEREBY ORDERED:
1. Defendants AmericanWest Bank and SKBHC
Holdings LLC's Motion to Dismiss, ECF No. 76, is
GRANTED.
2. Defendants Robert and Michelle Wyles's Motion to
Dismiss, ECF No. 79, is GRANTED.
3. The Second Amended Complaint is DISMISSED
WITH PREJUDICE.
4. Defendants T-16 Management Co., Ltd., and Gary
and Linda Johnson's Motion for Summary Judgment,
ECF No. 88, is DENIED AS MOOT.
5. Defendant SKBHC Holdings LLC's Motion for
Summary Judgment, ECF No. 122, is DENIED AS
MOOT.
Any motion for attorney fees shall be filed within 30
days of the date of this Order, even though the
Court will instruct the Clerk's Office to close the case
administratively.
The District Court Clerk is directed to enter this
Order, provide copies to counsel, enter judgment
accordingly, and CLOSE this case.
DATED this 17th day of July 2015.
/s/ Rosanna Malouf Peterson
ROSANNA MALOUF PETERSON
Chief United States District Court Judge

App. 52

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WASHINGTON
No. 1:14-CV-3125-RMP
CERVANTES ORCHARDS & VINEYARDS, LLC, a
Washington
limited
liability
corporation;
CERVANTES NURSERIES, LLC, a Washington
limited
liability
corporation;
CERVANTES
PACKING & STORAGE, LLC, a Washington limited
liability corporation; MANCHEGO REAL, LLC, a
Washington limited liability corporation; JOSE G.
CERVANTES and CYNTHIA C. CERVANTES,
individually, and upon behalf of their community
property marital estate;
Plaintiffs,
v.
AMERICAN WEST BANK, a corporation; SKBHC
HOLDINGS, LLC, a Washington limited liability
corporation; T-16 MANAGEMENT CO, LTD, a
Washington corporation; GARY JOHNSON and
LINDA JOHNSON, individually and upon behalf of
their community property marital estate; NW
MANAGEMENT REALTY SERVICES, INC, a
Washington corporation also known as Northwest
Farm Management Company; and ROBERT WYLES
and MICHELLE WYLES, individually and upon
behalf of their community property marital estate,
Defendants.

App. 53

Before: ROSANNA MALOUF PETERSON,
Chief United States District Court Judge
Filed: July 10, 2015
ORDER GRANTING MOTION TO DISMISS
DEERE DEFENDANTS
Before the Court is the Deere Defendants' Motion to
Dismiss Plaintiffs' Second Amended Complaint,
ECF No. 91.1 The Court has reviewed the record
and the parties' arguments.
BACKGROUND
Plaintiffs constitute a farming group that grows
crops including apples, pears, grapes, and cherries.
ECF No. 74 at 4. Plaintiffs assert that multiple
defendants engaged in a broad scheme of
misconduct involving racketeering, extortion, fraud,
and civil rights violations. See ECF No. 74 at 17-24.
In 2003, Deere Credit, Inc. ("DCI") loaned money to
Plaintiffs. See ECF No. 92, Ex. A at 3 (First

1

The "Deere Defendants" are Deere & Company, Deere Credit,
Inc., John Deere Capital Corporation, John Deere Financial,
f.s.b. f/k/a FPC Financial, and Deere Credit Services, Inc

App. 54

Amended
Plan). 2

Order

Confirming

Chapter

11

Plaintiffs defaulted on their obligations to DCI, and
eventually
Plaintiff
Cervantes
Orchards
&
Vineyards, LLC ("COV") filed for bankruptcy. See
ECF Nos. 74 at 2; 92, Ex. A at 1. A bankruptcy plan
was adopted, which required COV to satisfy the debt
to DCI by December 31, 2009. ECF Nos. 74 at 5; 92,
Ex. A at 7. Plaintiffs allege that adverse economic
conditions prevented them from meeting
the
payment deadline. ECF No. 74 at 6.
Plaintiffs assert that DCI "demanded a high rate of
interest of 9.75% and an aggressive principal
reduction during the term explicitly mandated
within the plan of reorganization," between April
2007 and December 31, 2009. ECF No. 74 at 5. Jose
Cervantes, COV's principal owner, proposed that
DCI restructure financing for the debt so that COV
could maintain its operations. ECF No. 74 at 6. Even
though Mr. Cervantes informed DCI that he and the
2

Where appropriate, the Court refers to background
information found in documents that were provided by the
parties that are referred to in the Second Amended Complaint
and to which no party objects. See Sams v. Yahoo! Inc., 713
F.3d 1175, 1179 (9th Cir. 2013) (when deciding a motion to
dismiss, court may "consider documents that were not
physically attached to the complaint where the documents'
authenticity is not contested, and the plaintiff's complaint
necessarily relies on them").

App. 55

Cervantes Farming Group had substantial equity in
their real property to support repayment of the debt,
DCI refused to refinance the debt. ECF No. 74 at 6.
COV alleges that it paid all interest due and reduced
the amount of principal owed. ECF No. 74 at 6. As of
December 31, 2009, Plaintiffs' debt to DCI was
reduced from $4,941,876.77 to $4,339,378.27. ECF
Nos. 74 at 5; 92, Ex. A at 4.
On January 8, 2010, DCI moved the bankruptcy
court for an order appointing a liquidating agent
pursuant to the terms of the bankruptcy plan. ECF
No. 74 at 6-7. DCI represented to the bankruptcy
court that T-16 Management Company, Ltd. ("T-16"),
an auction firm, was well qualified for the position.
ECF No. 74 at 7. Plaintiffs claim that DCI failed to
search for any other potential liquidating agents.
ECF No. 74 at 7. Plaintiffs further "allege that
counsel of record representing Deere Credit, Inc.,
Roger Bailey, Esq., of Bailey and Busey, PLLC, also
represented the interests of T-16 because T- 16 had
served and acted under the direction and control of
Deere Credit, T-16's principal." ECF No. 74 at 7. The
bankruptcy court appointed T-16 as the liquidating
agent and ordered COV to turn over all control of the
orchards that constituted collateral for the debt owed
to DCI. See ECF No. 74 at 7-8.

App. 56

Plaintiffs allege that T-16 failed to care properly for
the real property. After Plaintiffs turned over the
property on March 17, 2010, Plaintiffs assert that no
farming activities took place for over a week, despite
Mr. Cervantes's warnings that it was necessary to
protect the crops against the frost. ECF No. 74 at 8.
With DCI's approval, T-16 hired Northwest
Management and Realty Services, Inc., a.k.a
Northwest Farm Management ("NWFM") to manage
the property. ECF No. 74 at 8. Plaintiffs allege that
NWFM in turn contracted with workers who lacked
proper farm labor contractor licensing. ECF No. 74 at
8. Furthermore, Plaintiffs claim that both T-16 and
DCI knew that NWFM lacked a statutorily required
farm labor contractor license. ECF No. 74 at 8.
According to Plaintiffs, persons believed to be NWFM
employees removed personal property from the
orchards. ECF No. 74 at 9. Specifically, the persons
allegedly took truckloads of smudge pots to
land
owned by Defendants Robert and Michelle Wyles and
former defendant Scott Anderson.3 ECF No. 74 at 9.
If the smudge pots had been kept on Plaintiffs'
In its Complaint for Violations of Court Order and Damages,
COV asserted that "[t]he persons principally associated with,
and who control, NWFM are Scott J. Anderson ('Anderson') and
Rob Wyles ('Wyles')." ECF No. 92, Ex. E at 2. Mr. Anderson
passed away, and his estate was not listed as a defendant in the
Second Amended Complaint. See ECF Nos. 74 at 1; 100, Ex. 3 at
4.
3

App. 57

property, Plaintiffs claim that they could have been
used to protect the crops from frost damage. ECF No.
74 at 9.
Plaintiffs assert that the refusal to maintain the real
property was a direct result of the concerted efforts
of multiple defendants, including DCI. ECF No. 74 at
Plaintiffs claim that the intent of these defendants
was to obtain Plaintiffs' business and property. ECF
No. 74 at 9.
As a result of T-16's conduct, COV moved the
bankruptcy court to remove the firm as the
liquidating agent. ECF No. 74 at 9. In response, Mr.
Anderson filed a declaration, which Plaintiffs assert
is fraudulent. ECF No. 74 at 10. Plaintiffs claim that
because of the fraudulent declaration, Mr. Cervantes
was prohibited from entering the real property. ECF
No. 74 at 10. Plaintiffs allege that DCI, by aiding and
abetting other defendants: caused COV's laborers to
work on other orchards that NWFM managed;
charged COV for the time and expense of using
equipment on other NWFM property; charged COV
for labor and supplies that NWFM used; and
threatened and retaliated against COV labor
contractors hired by COV if those contractors refused
to cooperate with NWFM. See ECF No. 74 at 10-11.
Plaintiffs contend that these actions were intended
to reduce the value of the real property so that it

App. 58

"could be sold by Deere and American West Bank to
customers and friendly parties at greatly diminished
prices." ECF No. 74 at 11. By the time that the
property was sold in 2010 and 2011, Plaintiffs allege
that the mismanagement had rendered it virtually
worthless. ECF No. 74 at 11.
The Deere Defendants' alleged misconduct continued
after the sale of the property. Plaintiffs assert that
DCI sought to conceal from COV and the bankruptcy
court a settlement agreement that concerned the sale
of damaged apples. ECF No. 74 at 13. The settlement
agreement included a confidentiality provision,
which Plaintiffs contend was meant to conceal the
sale of a particular block of property. ECF No. 74 at
13. Also, Plaintiffs claim that on August 17, 2011,
Robert Thompson, a representative from John Deere
Financial, Inc., called Mr. Cervantes, threatening
him with "immediate problems" if he did not resolve
his dispute with DCI. ECF No. 74 at 14.
Furthermore,
Plaintiffs
contend
that
DCI
discriminated against Plaintiffs in its lending
practices by requiring them and other Hispanic farm
owners to provide a disproportionately large amount
of capital to secure corporate and personal loans.
ECF No. 74 at 15. DCI also allegedly refused
requests from Plaintiffs and other Hispanic farm
owners to extend or modify the terms of debt
repayment. ECF No. 74 at 15.

App. 59

The parties have pursued previous legal actions
related to these incidents. On November 16, 2009,
DCI filed a complaint in state court against Plaintiffs
other than COV ("non-COV Plaintiffs"), for breach of
a forbearance agreement and for judgment and
foreclosure of mortgages and security interests
("Foreclosure Action"). ECF No. 92, Ex. B. Also, on
May 31, 2012, COV filed an amended adversary
complaint against NWFM, Mr. Anderson, Mr. Wyles,
and T-16 in its bankruptcy case, alleging that the
defendants had committed acts including fraud,
misrepresentation, conversion, unjust enrichment,
tortuous interference with reasonable business
expectancy, breach of fiduciary trust, and gross
negligence. ECF No. 100, Ex. 2.
Here, Plaintiffs claim that the Deere Defendants
violated multiple provisions of the Racketeer
Influenced and Corrupt Organizations Act ("RICO").
Together with other defendants, Plaintiffs allege that
the Deere Defendants constituted a continuing
criminal enterprise that engaged in and conspired to
engage in racketeering, extortion, and fraud. ECF
No. 74 at 17-22. Plaintiffs further assert violations of
federal civil rights statutes. ECF No. 74 at 22-23.
ANALYSIS
The Deere Defendants move to dismiss the case,
contending that Plaintiffs' RICO theory is

App. 60

implausible, that Plaintiffs' claims are barred by the
doctrine of res judicata, and that Plaintiffs have
failed to allege sufficient facts to support any of the
predicate acts that supposedly support their RICO
theory. Furthermore, the Deere Defendants assert
that Plaintiffs' lending discrimination claims are
time barred.
Motion to Dismiss Standard
The Federal Rules of Civil Procedure allow for the
dismissal of a complaint where the plaintiff fails to
state a claim upon which relief can be granted. Fed.
R. Civ. P. 12(b)(6). A motion to dismiss brought
pursuant to this rule "tests the legal sufficiency of a
claim." Navarro v. Block, 250 F.3d 729, 732 (9th Cir.
2001). The Supreme Court has offered the following
method for assessing the sufficiency of a complaint:
[A] court considering a motion to dismiss can
choose to begin by identifying pleadings that,
because they are no more than conclusions,
are not entitled to the assumption of truth.
While legal conclusions can provide the
framework of a complaint, they must be
supported by factual allegations. When there
are well-pleaded factual allegations, a court
should assume their veracity and then
determine whether they plausibly give rise
to an entitlement to relief.

App. 61

Ashcroft v. Iqbal, 556 U.S. 662, 679, 129 S. Ct. 1937,
173 L. Ed. 2d 868 (2009).
To withstand dismissal, a complaint must contain
"enough facts to state a claim to relief that is
plausible on its face." Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570, 127 S. Ct. 1955, 167 L. Ed. 2d 929
(2007). "A claim has facial plausibility when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged." Iqbal, 556 U.S.
at 678. A plaintiff is not required to establish a
probability of success on the merits; however, he or
she must demonstrate "more than a sheer possibility
that a defendant has acted unlawfully." Id. (citing
Twombly, 550 U.S. at 556).
1. Res Judicata
The Deere Defendants argue that res judicata
precludes COV's claims against them because COV
alleged the same claims against the same parties in
its adversary complaint, which the bankruptcy court
dismissed with prejudice. ECF No. 91 at 10-12.
According to the Deere Defendants, the non-COV
Plaintiffs also raised similar issues as affirmative
defenses or counterclaims in the state court
Foreclosure Action. ECF No. 91 at 7.

App. 62

Res judicata bars the litigation of claims in a later
action that were raised or could have been raised in a
prior action. Owens v. Kaiser Found. Health Plan,
Inc., 244 F.3d 708, 713 (9th Cir. 2001). "The doctrine
is applicable whenever there is '(1) an identity of
claims, (2) a final judgment on the merits, and (3)
identity or privity between parties.'" Id. (quoting
Western Radio Servs. Co. v. Glickman, 123 F.3d
1189, 1192 (9th Cir. 1997)).
The Deere Defendants contend that the judgments
entered in the adversary proceeding and in the
Foreclosure Action preclude the current lawsuit
under the doctrine of res judicata. See ECF No. 91 at
10-12. However, for the reasons discussed below, the
Court concludes that neither of the prior actions bars
Plaintiffs' lawsuit against the Deere Defendants.
In regard to the adversary proceeding, the parties to
that action are not identical to or in privity with the
current litigants. "'Privity'—for the purposes of
applying the doctrine of res judicata—is a legal
conclusion 'designating a person so identified in
interest with a party to former litigation that he
represents precisely the same right in respect to the
subject matter involved.'" In re Schimmels, 127 F.3d
875, 881 (9th Cir. 1997) (quoting Southwest Airlines
Co. v. Texas Int'l Airlines, Inc., 546 F.2d 84, 94 (5th
Cir.), cert. denied, 434 U.S. 832, 98 S. Ct. 117, 54 L.
Ed. 2d 93 (1977)).

App. 63

The Deere Defendants assert that DCI is the only
entity among them that allegedly committed the
actionable conduct and that DCI "is the same party
that was named in the Adversary action . . . ." ECF
No. 91 at 12. Although DCI was named in the
original adversary complaint that COV filed, none of
the Deere Defendants were included in the first
amended adversary complaint, which was the
complaint that resulted in a judgment. See ECF No.
100, Ex. 2. Also, it does not appear that any of the
defendants listed in the first amended adversary
complaint, NWFM, Mr. Anderson, Mr. Wyles, or T16, qualify as being in privity with the Deere
Defendants. Thus, the Deere Defendants have failed
to establish that the resolution of the adversary
action precludes the current lawsuit under the
doctrine of res judicata.
The Deere Defendants also have failed to show that
the Foreclosure Action bars the current lawsuit
because the actions lack an identity of claims. "The
central criterion in determining whether there is an
identity of claims between the first and second
adjudications is 'whether the two suits arise out of
the same transactional nucleus of facts.'" Frank v.
United Airlines, Inc., 216 F.3d 845, 851 (9th Cir.
2000) (quoting Costantini v. Trans World Airlines,
681 F.2d 1199, 1201-02 (9th Cir. 1982)). In
the

App. 64

Foreclosure Action, the non-COV Plaintiffs asserted
against DRI affirmative defenses related to racial
discrimination and improper loan administration.
ECF No. 92, Ex. I at 7-11.
Although some of the facts underlying the
affirmative defenses asserted in the Foreclosure
Action arise from the same facts alleged in this
matter, the current claims also are based on events
that occurred after thenon-COV Plaintiffs had filed
their answer in the Foreclosure Action. For example,
the answer in the Foreclosure Action, dated
December 24, 2009, predates DCI's motion to appoint
T-16 as the liquidating agent, which is a fact that
Plaintiffs allege in support of their theory of
bankruptcy fraud. See ECF Nos. 74 at 6-7; 92, Ex. I
at 12. The current allegation that DCI was aware
that NWFM lacked the necessary farm labor
contractor license also could not have been raised in
the non-COV Plaintiffs' answer in the Foreclosure
Action because T-16 had not yet been appointed and,
therefore, had not hired NWFM. See ECF No. 74 at
8.
The Court finds that the claims in the current
lawsuit are not identical with those in the
Foreclosure Action, nor could they have been raised
at the time of the prior action. Thus, the disposition
of the Foreclosure Action does not preclude Plaintiffs'
current claims. The Deere Defendants have failed to

App. 65

establish that Plaintiffs' current claims are barred by
res judicata.
2. RICO violations
The Deere Defendants also argue that Plaintiffs
failed to state a claim for RICO violations. ECF No.
91 at 13-19. RICO's private right of action provides
in relevant part that "[a]ny person injured in his
business or property by reason of a violation of
section 1962 of this chapter may sue therefor in any
appropriate United States district court and shall
recover threefold the damages he sustains and the
cost of the suit, including a reasonable attorney's fee
. . . ." 18 U.S.C. § 1964(c).
Plaintiffs allege that the Deere Defendants violated
provisions of the RICO Act found in 18 U.S.C. §§
1962(c) and (d). ECF No. 74 at 17-22. Subsection (c)
prohibits any person associated with an enterprise
that conducts interstate commerce from participating
in the enterprise's affairs through a "pattern of
racketeering activity" or collection of unlawful debt.
18 U.S.C. § 1962(c). Subsection (d) proscribes the
conspiracy to violate subsection (c). 18 U.S.C. §
1962(d).
"Racketeering activity" includes any act that is
indictable under the Hobbs Act, 18 U.S.C. § 1951,
and a number of specified acts that are "chargeable

App. 66

under State law and punishable by imprisonment for
more than one year." 18 U.S.C. § 1961(1)(A), (B); see
also United Bhd. of Carpenters & Joiners of Am. v.
Bldg. & Constr. Trades Dep't, AFL-CIO, 770 F.3d
834, 837 (9th Cir. 2014). A plaintiff must allege at
least two predicate racketeering acts to state a
"pattern" of racketeering that would establish a
violation of the RICO Act. 18 U.S.C. § 1961(5);
Turner v. Cook, 362 F.3d 1219, 1229 (9th Cir. 2004).
"A 'pattern' of racketeering activity also requires
proof that the racketeering predicates are related
and 'that they amount to or pose a threat of
continued criminal activity.'" Turner, 362 F.3d at
1229 (quoting H.J. Inc. v. Northwestern Bell Tel. Co.,
492 U.S. 229, 239, 109 S. Ct. 2893, 106 L. Ed. 2d 195
(1989)).
Here, Plaintiffs allege that the Deere Defendants
committed extortion, bankruptcy fraud, and mail and
wire fraud, all of which are predicate racketeering
acts. See ECF No. 74 at 19-20; 18 U.S.C. § 1961(1)
(identifying extortion, "any offense involving fraud
connected with a [bankruptcy] case[,]" and mail and
wire fraud as predicate RICO acts). The
Deere
Defendants argue that Plaintiffs have failed to plead
plausible claims for any of these predicate acts.
a. Extortion

App. 67

Plaintiffs allege that Defendants committed acts of
extortion under the Hobbs Act and state law by
conspiring to obtain and in fact obtaining Plaintiffs'
real property "with Plaintiffs' consent, induced by
the wrongful use of fear of economic harm . . . ."
ECF No. 74 at 19-20.
The Hobbs Act defines extortion as "the obtaining of
property from another, with his consent, induced by
wrongful use of actual or threatened force, violence,
or fear, or under color of official right." 18 U.S.C. §
1951(b)(2).4 "Fear," in this context, "can include
fear of economic loss." United Bhd. of Carpenters,
770 F.3d at 838. However, because fear of economic
loss also plays a lawful role in business
transactions, courts must "differentiate between
legitimate use of economic fear-hard bargaining-and
wrongful use of such fear-extortion." Id. Although it
can be difficult to distinguish hard bargaining
from extortion, the Ninth Circuit has relied on a
Supreme Court holding "that a defendant violates
4

Washington State law provides that "'[e]xtortion' means
knowingly to obtain or attempt to obtain by threat property
or services of the owner . . . ." RCW 9A.56.110. Although
Plaintiffs listed both state and federal law in the section of
the Second Amended Complaint regarding extortion, the
parties discuss only the federal definition in their briefing
and do not contend that federal and state extortion laws
differ materially. See ECF Nos. 91 at 15-17; 98 at 13-14.
Accordingly, the Court considers the federal definition of the
term.

App. 68

the Hobbs Act only 'where the obtaining of the
property would itself be "wrongful" because the
alleged extortionist has no lawful claim to that
property.'" Id. (quoting United States v. Enmons,
410 U.S. 396, 400, 93 S. Ct. 1007, 35 L. Ed. 2d 379
(1973)).5
Here, Plaintiffs allege that the Deere Defendants
committed predicate RICO acts of extortion by
engaging in discriminatory lending practices,
mismanaging the collateral properties, and
threatening "to resolve the dispute between Plaintiffs
and DCI or face immediate problems . . . ." ECF No.
98 at 14. According to Plaintiffs, their business
relationship with the Deere Defendants was never a
negotiation; rather, Plaintiffs claim that the Deere
Defendants imposed excessive lending conditions on
Plaintiffs and refused to allow them to refinance
their obligations. ECF No. 98 at 13.

5

Plaintiffs incorrectly proffer that a "'[l]awful claim' has no
place when the context of the alleged extortion is outside the
realm of labor disputes." See ECF No. 98 at 15. While the
Ninth Circuit has not extended the lawful-claim defense as
to violence beyond the context of labor disputes, United
States v. Daane, 475 F.3d 1114, 1119 (9th Cir. 2007), the
defense generally may be raised as to non-violent hard
bargaining tactics used in instances other than labor
disputes, see, e.g., Levitt v. Yelp! Inc., 765 F.3d 1123, 1133
(9th Cir. 2014) (considering whether online review company
was required by law to publish positive reviews for business).

App. 69

The Court finds that Plaintiffs have not alleged
sufficient facts to support a claim that the Deere
Defendants committed predicate acts of extortion.
Plaintiffs may lack the business acumen of the Deere
Defendants, but they do not allege facts to support
the proposition that any fear, economic or otherwise,
induced them to enter into the initial business
relationship with the Deere Defendants. Nor do
Plaintiffs assert any reason why the Deere
Defendants were required to restructure the
financing of COV's debt after COV had filed for
bankruptcy and defaulted on its obligation to repay
DCI under the terms of the bankruptcy plan.
Although the Deere Defendants could have chosen to
alter repayment to terms more favorable to COV,
Plaintiffs have alleged no circumstances indicating
that it was an act of extortion for the Deere
Defendants to decline to do so. This conduct does not
rise to the level even of hard bargaining; the bargain
already had been struck, and the Deere Defendants
were not obliged to revisit it.
Plaintiffs also have failed to state plausibly how the
alleged mismanagement of the collateral property
constitutes a predicate act of extortion. Plaintiffs'
theory in regard to mismanagement of the property
makes no sense in the context of extortion. The
property already was part of the bankruptcy estate,
of which the Deere Defendants were creditors. Thus,

App. 70

it is unclear how the use of fear or force would assist
the Deere Defendants in obtaining Plaintiffs'
property.
Finally, Plaintiffs have not alleged sufficient facts to
claim that Robert Thompson's threat of "immediate
problems" constituted a predicate act of extortion.
Although the statement may have threatened an
unlawful consequence if Plaintiffs failed to resolve
their dispute with DCI, "immediate problems" just as
likely may have referred to the onerous, but lawful,
burden of litigation. The alleged threat is too vague
for the Court to attach any improper meaning to it.
See Iqbal, 556 U.S. at 678 ("Where a complaint
pleads facts that are 'merely consistent with' a
defendant's liability, it 'stops short of the line
between possibility and plausibility of entitlement to
relief.'") (quoting Twombly, 550 U.S. at 557) (internal
quotation marks omitted).
In sum, the Court finds that Plaintiffs have failed to
allege any predicate acts of extortion in support of
their RICO claims against the Deere Defendants.
b. Bankruptcy Fraud
The Court next determines whether Plaintiffs
adequately have alleged predicate acts of bankruptcy
fraud. Plaintiffs contend that the Deere Defendants

App. 71

were the principals of T-16 and NWFM, such that
the Deere Defendants are responsible for those
entities' alleged fraudulent acts, including the
embezzlement of property. ECF No. 98 at 12.
Plaintiffs also allege that DCI, T-16, NWFM,
Anderson, and Wyles committed bankruptcy fraud by
seeking to conceal from the bankruptcy court a
settlement agreement that would have revealed the
true extent of the damage to a portion of the
collateral property. ECF No. 98 at 12.
Plaintiffs allege that the Deere Defendants
committed predicate RICO acts of bankruptcy fraud
in violation of 18 U.S.C. §§ 152 and 153. ECF No. 74
at 20. Section 152 prohibits, among other acts,
knowingly and fraudulently concealing property of a
bankruptcy estate and knowingly and fraudulently
making a false declaration in or in relation to a
bankruptcy case. 18 U.S.C. § 152(1), (3). Section 153
prohibits certain persons with access to bankruptcy
estate property or documents from knowingly and
fraudulently appropriating or embezzling the estate's
property. 18 U.S.C. § 153.
In support of the alleged bankruptcy fraud, Plaintiffs
claim that the Deere Defendants are liable for the
alleged fraudulent acts of the liquidating agent, T16, because that entity was ordered in the
bankruptcy plan to "take its direction from DCI or as
otherwise directed by the Court." See ECF Nos. 98 at

App. 72

12; 92, Ex. A at 8. T-16, along with other Defendants,
allegedly embezzled property from the bankruptcy
estate, charged COV expenses for labor and
equipment that were used on other property, and
applied minimal labor and resources to the estate
property. ECF No. 74 at 11-12. Plaintiffs further
claim that the Deere Defendants are liable for the
false sworn declaration that NWFM's co-owner, Mr.
Anderson, allegedly filed in bankruptcy court. ECF
No. 98 at 12.
However, Plaintiffs have not asserted sufficient facts
to adequately plead that the Deere Defendants are
liable for the alleged fraud perpetrated by T-16 or
others. Although the bankruptcy plan provided that
T-16 would take direction from DCI, Plaintiffs have
asserted no facts indicating that DCI or the other
Deere Defendants would be liable for T-16's allegedly
fraudulent acts. Nor do Plaintiffs provide factual
assertions to support the contention that the Deere
Defendants are liable for the allegedly false
declaration. Rather, Plaintiffs' assertion of the Deere
Defendants' vicarious liability is a legal conclusion,
which is not entitled to an assumption of truth. See
Doe I v. Wal-Mart Stores, Inc., 572 F.3d 677, 683
(9th Cir. 2009) ("Plaintiffs' general statement that
Wal-Mart exercised control over their day-to-day
employment is a conclusion, not a factual allegation
stated with any specificity. We need not accept

App. 73

Plaintiffs' unwarranted conclusion in reviewing a
motion to dismiss.").
Excluding Plaintiffs' conclusory statement that the
Deere Defendants are liable for the actions of T-16
and NWFM, the Court finds that Plaintiffs have not
raised a plausible claim that the Deere Defendants
committed any RICO predicate acts of bankruptcy
fraud.
c. Mail and Wire Fraud
Plaintiffs also allege that the Deere Defendants
committed mail and wire fraud. ECF No. 74 at 2021. To allege mail fraud in violation of 18 U.S.C. §
1341, "it is necessary to show that (1) the
defendants formed a scheme or artifice to defraud;
(2) the defendants used the United States mails or
caused a use of the United States mails in
furtherance of the scheme; and (3) the defendants
did so with the specific intent to deceive or defraud."
Schreiber Distrib. Co. v. Serv-Well Furniture Co.,
806 F.2d 1393, 1399-400 (9th Cir. 1986). Wire
fraud, in violation of 18 U.S.C. § 1343, "consists of
(1) the formation of a scheme or artifice to defraud
(2) use of the United States wires or causing a use of
the United States wires in furtherance of the
scheme; and (3) specific intent to deceive or
defraud." Id. at 1400.

App. 74

Federal Rule of Civil Procedure 9(b) requires that
fraud be pleaded with particularity. "[T]he pleader
must state the time, place, and specific content of
the false representations as well as the identities of
the parties to the misrepresentation." Id. at 1401.
Plaintiffs claim that the Deere Defendants violated
the mail and wire fraud statutes in their scheme to
defraud Plaintiffs of their property by concealing the
settlement agreement from Plaintiffs and concealing
the relationship between "the Deere Entities,
NWFM, T-16 and the Cervantes Attorneys[,]" among
other acts.6 ECF No. 74 at 20. The alleged fraud
involved the use of emails and mailings about
bankruptcy court filings. ECF No. 74 at 20-21.
Plaintiffs have failed to assert sufficient facts to
claim that the Deere Defendants committed
predicate RICO acts of wire or mail fraud. Even
according to the asserted facts, there is no indication
that the Deere Defendants were aware of the
settlement agreement, which was between other
parties. See ECF No. 74 at 13-14. Nor, as discussed
above in regard to bankruptcy fraud, have Plaintiffs
pleaded with sufficient specificity how the Deere

Although the record does not identify the "Cervantes
Attorneys" with precision, they apparently are Bruce Johnston
and Dale Foreman, ECF No. 99 at 9, who were dismissed
voluntarily before Plaintiffs filed the Second Amended
Complaint, see ECF No. 27.

6

App. 75

Defendants would be liable for acts committed by T16.
In sum, Plaintiffs have failed to assert plausible
RICO predicate acts to support a claim that the
Deere Defendants violated 18 U.S.C. § 1962(c).
Because Plaintiffs have not stated a substantive
RICO claim against the Deere Defendants, their
RICO conspiracy allegation under 18 U.S.C. §
1962(d) fails as to these defendants as well. See
Religious Tech. Ctr. v. Wollersheim, 971 F.2d 364,
367 n.8 (9th Cir. 1992) ("Because we find that
[plaintiff] has failed to allege the requisite
substantive elements of RICO, the conspiracy cause
of action cannot stand.").
1. Lending Discrimination
The Deere Defendants argue that Plaintiffs'
discrimination claims should be dismissed because
they are barred by res judicata, statutes of
limitations, and waiver. ECF No. 91 at 19-21. The
Court finds that Plaintiffs' discrimination claims are
precluded by the applicable statutes of limitations
and therefore does not consider the Deere
Defendants' remaining arguments.
Plaintiffs assert discrimination claims pursuant to
42 U.S.C. §§ 1981, 1982, 1985(3), and 1986. ECF No.
74 at 22-23. The parties do not dispute that a four-

App. 76

year statute of limitations governs Plaintiffs' claim
brought under § 1981. See Jones v. R.R. Donnelley &
Sons Co., 541 U.S. 369, 383-85, 124 S. Ct. 1836, 158
L. Ed. 2d 645 (2004) (discussing 28 U.S.C. § 1658).7
Washington's three-year statute of limitations for
personal injury actions, RCW 4.16.080(2), governs
7

Section 1658's four-year statute of limitations applies to
actions brought under federal statutes that were enacted after
December 1, 1990. Jones, 541 U.S. at 371. In Jones, the Court
explained that § 1658 applies to claims that were made possible
by an amendment to § 1981 that occurred after December 1,
1990. Id. at 383. Racial harassment in employment is an
example of a § 1981 claim that was not possible under the pre1990 version of the section. See id. Some § 1981 claims,
however, instead remain subject to the most analogous statute
of limitations under state law. See, e.g., Lukovsky v. City &
Cnty. of San Francisco, 535 F.3d 1044, 1048 n.2 (9th Cir. 2008)
(applying forum state's statute of limitations to failure-to-hire
claim, which was cognizable under pre-1990 version of § 1981).
The applicable statute of limitations under Washington State
law would be the three year limitation for a lawsuit alleging
personal injury, RCW 4.16.080(2). See Beauregard v. Lewis
Cnty., Wash., No. C05- 5738RJB, 2006 U.S. Dist. LEXIS 73840,
2006 WL 2924612, at *8 (W.D. Wash. Oct. 10, 2006) (citing
Taylor v. Regents of Univ. of Cal., 993 F.2d 710, 711-12 (9th
Cir. 1993)). The parties do not address whether Plaintiffs' §
1981 claim would have been cognizable under the pre-1990
version of the law. However, because the parties do not dispute
that the federal four-year statute of limitations applies and
because the issue does not affect the Court's decision, the Court
assumes, for purposes of this motion, that the longer statute of
limitations is applicable.

App. 77

claims brought pursuant to 42 U.S.C. § 1985(3). See
Taylor v. Regents of Univ. of Cal., 993 F.2d 710, 711
(9th Cir. 1993) (per curiam) (applying California's
analogous statute of limitations). The same rule
controls § 1982 claims. See Mitchell v. Sung, 816 F.
Supp. 597, 600 (N.D. Cal. 1993) ("Because section
1982 does not have a statute of limitations, courts
apply the applicable state statute of limitations."). A
one-year statute of limitations applies to claims
under § 1986. 42 U.S.C. § 1986.
Although the relevant state statute of limitations
applies to some of Plaintiffs' civil rights claims,
federal law determines when a civil rights claim
accrues. See Olsen v. Idaho State Bd. of Med., 363
F.3d 916, 926 (9th Cir. 2004) (citing Morales v. City
of Los Angeles, 214 F.3d 1151, 1153-54 (9th Cir.
2000)). Federal law provides that "a claim accrues
when the plaintiff knows or has reason to know of
the injury which is the basis of the action."
TwoRivers v. Lewis, 174 F.3d 987, 991 (9th Cir.
1999). Accrual begins on the date on which a plaintiff
becomes aware of an adverse action, not when a
plaintiff suspects that a legal wrong has been
committed. Lukovsky v. City & Cnty. of San
Francisco, 535 F.3d 1044, 1049-50 (9th Cir. 2008).
Here, the Deere Defendants argue that Plaintiffs'
claims under all of the applicable statutes of
limitations are barred. ECF No. 91 at 19-20.

App. 78

According to the Deere Defendants, the last allegedly
discriminatory act occurred on January 8, 2010,
when the Deere Defendants refused to renegotiate
the repayment terms under the bankruptcy plan.
ECF No. 91 at 20 (citing ECF No. 74 at 6-7).
Plaintiffs did not file their original complaint until
more than four years later, on September 2, 2014.
See ECF No. 1. In response, Plaintiffs do not refer to
a later act but instead contend that the alleged
misconduct constitutes "'continuing violations' under
§ 1981 for purposes of the statute of limitations."
ECF No. 98 at 20.
The Supreme Court considered an alleged continuing
violation of the Fair Housing Act in Havens Realty
Corp. v. Coleman, 455 U.S. 363, 380, 102 S. Ct. 1114,
71 L. Ed. 2d 214 (1982). All of the incidents of alleged
misconduct against one plaintiff in Havens Realty
were time-barred, but another plaintiff alleged that a
Fair Housing Act violation occurred within the 180day time limit. Id. at 380. The Court held "that
where a plaintiff, pursuant to the Fair Housing Act,
challenges not just one incident of conduct violative
of the Act, but an unlawful practice that continues
into the limitations period, the complaint is timely
when it is filed within 180 days of the last asserted
occurrence of that practice." See id. at 380-81
(footnote omitted). In other words, "because [one]

App. 79

incident fell within the limitations period, none of
the claims was barred." See id. at 380.
As Plaintiffs recognize, a continuing violation theory
under § 1981 also requires that at least one
discriminatory act occur within the filing period.
ECF No. 98 at 20 (citing Phillips v. Heydt, 197 F.
Supp. 2d 207 (E.D. Pa. 2002)). However, Plaintiffs
refer to no misconduct that allegedly occurred within
the filing period. Instead, they broadly claim that
Plaintiffs' experiences with the Deere Defendants
reflect "a steady steam [sic] and continuum properly
characterized as discriminatory conduct based upon
racial affiliation and ethnic identity." ECF No. 98 at
20. This conclusory allegation is insufficient to allege
that any discriminatory acts occurred within the
filing period for a § 1981 claim.
Accordingly, the Court concludes that Plaintiffs'
lending discrimination claims are barred by the
applicable statutes of limitations.
4. Plausibility
After considering in detail the separate claims in
Plaintiffs' Second Amended Complaint, the Court
finds that it is appropriate to address a more
fundamental flaw in the theory of the case against
the Deere Defendants. Plaintiffs allege that the
Deere Defendants were significant actors in a

App. 80

scheme, driven by racial and ethnic animus, to
deprive Plaintiffs and other Hispani farmers of their
land. The Deere Defendants allegedly were willing
even to lose large amounts of money simply to ensure
that Plaintiffs no longer would possess their land.
However, Plaintiffs have alleged no facts supporting
their conclusion that the Deere Defendants' actions
were driven by discrimination. In response to this
lawsuit, the Deere Defendants have proffered that
after COV failed to repay its debt in accordance with
the bankruptcy plan, the Deere Defendants sought
appointment of a liquidating agent, which the
bankruptcy court approved. "As between that
'obvious alternative explanation' for [the Deere
Defendants' actions] and the purposeful, invidious
discrimination [that Plaintiffs ask the Court] to
infer, discrimination is not a plausible conclusion."
See Iqbal, 556 U.S. at 682 (internal citation omitted).
Despite Plaintiffs' claims that T-16 mismanaged the
property, it simply is not plausible under
the
asserted facts in the Second Amended Complaint
that the Deere Defendants engaged in a
discriminatory scheme of which T-16 allegedly
played a role.
5. Dismissal with Prejudice
Leave to amend a complaint should be granted freely
when justice so requires. Fed. R. Civ. P. 15(a).

App. 81

However, "liberality in granting leave to amend is
subject to several limitations." Ascon Properties, Inc.
v. Mobil Oil Co., 866 F.2d 1149, 1160 (9th Cir. 1989)
(citing DCD Programs, Ltd. v. Leighton, 833 F.2d
183, 186 (9th Cir. 1987)). "Leave need not be granted
where the amendment of the complaint would cause
the opposing party undue prejudice, is sought in bad
faith, constitutes an exercise in futility, or creates
undue delay." Id. Additionally, "[t]he district court's
discretion to deny leave to amend is particularly
broad where plaintiff has previously amended the
complaint." Id.
The Court dismisses Plaintiffs' claims against the
Deere Defendants with prejudice. For the reasons
discussed above, the Court finds that allowing
Plaintiffs to amend their claims against the Deere
Defendants again would be futile and subject these
defendants to undue prejudice.
Accordingly, IT IS HEREBY ORDERED:
1. The Deere Defendants' Motion to Dismiss
Plaintiffs' Second Amended Complaint, ECF No. 91,
is GRANTED. The Court will issue a separate order
regarding the Deere Defendants' Motion for
Sanctions, ECF No. 112.
2. The Deere Defendants are DISMISSED WITH
PREJUDICE.

App. 82

The District Court Clerk is directed to enter this
Order and provide copies to counsel.
DATED this 10th day of July 2015.
/s/ Rosanna Malouf Peterson
ROSANNA MALOUF PETERSON
Chief United States District Court Judge

App. 83

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WASHINGTON
No. 1:14-CV-3125-RMP
CERVANTES ORCHARDS & VINEYARDS, LLC, a
Washington
limited
liability
corporation;
CERVANTES NURSERIES, LLC, a Washington
limited
liability
corporation;
CERVANTES
PACKING & STORAGE, LLC, a Washington limited
liability corporation; MANCHEGO REAL, LLC, a
Washington limited liability corporation; JOSE G.
CERVANTES and CYNTHIA C. CERVANTES,
individually, and upon behalf of their community
property marital estate;
Plaintiffs,
v.
DEERE & COMPANY, a corporation; DEERE
CREDIT, INC., a corporation; JOHN DEERE
CAPITAL CORPORATION, a corporation; JOHN
DEERE FINANCIAL FSB, a corporation formerly
known as FPC Financial; DEERE CREDIT
SERVICES, INC., a corporation; NORTHWEST
FARM
CREDIT
SERVICES,
a
corporation;
AMERICAN WEST BANK, a corporation; SKBHC
HOLDINGS, LLC, a Washington limited liability
corporation; T-16 MANAGEMENT CO, LTD, a
Washington corporation; GARY JOHNSON and
LINDA JOHNSON, individually and upon behalf of
their community property marital estate; NW
MANAGEMENT REALTY SERVICES, INC, a
Washington corporation also known as Northwest
Farm Management Company; ROBERT WYLES and

App. 84

MICHELLE WYLES, individually and upon behalf of
their community property marital estate; BOOKER
AUCTION COMPANY, a corporation; GARY W.
EAST; LAW OFFICE OF GARY W. EAST; HPC
LOAN SERVICER, LLC, a Delaware limited liability
company; ESTATE OF SCOTT J. ANDERSON;
ROOTABAGA ENTERPRISES, INC, a company
d/b/a CF Fresh; KEVIN GAY and JANE DOE GAY,
individually and upon behalf of their community
property marital estate; ACL FARMS, INC, a
Washington corporation; K&K ORCHARDS; and
MERLE BOOKER,
Defendants.
Before: ROSANNA MALOUF PETERSON,
Chief United States District Court Judge
Filed: December 19, 2014
ORDER STRIKING COMPLAINT AND AMENDED
COMPLAINT
Before the Court are two Motions to Strike
Complaint and for More Definite Statement. ECF
Nos. 11, 15. Also before the Court is a motion to join
the two pending motions to strike Plaintiffs' initial
Complaint. ECF No. 23. Plaintiffs filed an Amended
Complaint, ECF No. 29, which some defendants also
have moved to strike, ECF No. 33. The Court has
reviewed the motions, the complaints, and all other
relevant filings. The Court is fully informed.
Plaintiffs claim that Defendants violated the
Racketeer Influenced and Corrupt Organizations Act

App. 85

(RICO), the Ku Klux Klan Act of 1871, and the
Washington Consumer Protection Act, among other
federal and state laws. ECF Nos. 1 at 1-2; 29 at 1-2.
Multiple Defendants filed or joined motions to strike
the Complaint and for an order directing Plaintiffs to
file a new complaint of no more than 30 pages. See,
e.g., ECF No. 11 at 10. "Federal Rule of Civil
Procedure 8(a)(2) requires only 'a short and plain
statement of the claim showing that the pleader is
entitled to relief,' in order to 'give the defendant fair
notice of what the . . . claim is and the grounds upon
which it rests . . . .'" Bell Atl. Corp. v. Twombly, 550
U.S. 544, 555, 127 S. Ct. 1955, 167 L. Ed. 2d 929
(2007) (quoting Conley v. Gibson, 355 U.S. 41,
47,78S. Ct. 99, 2 L. Ed. 2d 80 (1957)) (alteration in
original). A party may move for a more definite
statement if a pleading "is so vague or ambiguous
that the party cannot reasonably prepare a
response." Fed. R. Civ. P. 12(e).
Both the Complaint and the Amended Complaint are
extremely long. The initial Complaint spans 337
pages,divided into 737 numbered paragraphs. ECF
No. 1. Plaintiffs' Amended Complaint is somewhat
shorter, comprising 143 pages and 430 numbered
paragraphs, but Plaintiffs also attached a 469-page
RICO Case Statement. ECF Nos. 29, 29-1.
More significant than the length of Plaintiffs'
pleadings is the fact that both the Complaint and the
Amended Complaint are difficult to comprehend. It
appears that Plaintiffs assert that Defendants
engaged in a scheme to obtain the property of
Plaintiffs and of other Hispanic farm owners. See

App. 86

ECF No. 29 at 8-9. However, the basis of Plaintiffs'
allegations is lost in a quagmire of wordy and
repetitious verbiage. See, e.g., ECF No. 29 at 22
(alleging "that defendants orchestrated, originated,
formulated, implemented, and executed such
criminal conduct with the intent and for the purpose
of engendering, inciting, instigating, and fomenting
racially motivated internecine"). Moreover, in the
Amended Complaint, Plaintiffs assert claims against
multiple defendants whom the Court had dismissed
without prejudice from this case just eleven days
earlier, at Plaintiffs' request. Compare ECF No. 29 at
98 with ECF No. 27 at 3-4.
Plaintiffs' RICO statement is even longer and more
difficult to understand. For example, a single
footnote in the document spans four pages, reciting
the full text and comments to the Federal Rule of
Civil Procedure that governs rules by district courts.
ECF No. 29-1 at 4-7, n.3. Although the Local Rules
provide that parties asserting RICO claims may file
case statements, LR 3.2, Plaintiffs' RICO statement
further muddles their theories of recovery and
demonstrates the necessity of a page limit on
Plaintiffs' RICO statement.
Plaintiffs' Complaint and the Amended Complaint
violate Federal Rule 8(a)'s requirement that a
pleading contain a short and plain statement of the
claim. No party reasonably could respond to
Plaintiffs' pleadings. Because the Court concludes
that the Amended Complaint fails to meet the
pleading standards, the Court does not consider
Defendants' argument that the Amended Complaint

App. 87

should be stricken because it was not filed with leave
of the Court or consent of the parties.
The Court is aware that Plaintiffs' counsel have been
chastised for filing similarly excessive pleadings in
the Western District of Washington. See ECF No. 12.
Counsel are on notice that they may be held liable
for unreasonably and vexatiously multiplying the
proceedings of this case. See Salstrom v. Citicorp
Credit Services, Inc., 74 F.3d 183 (9th Cir. 1996). A
court may impose sanctions as follows:
Any attorney or other person admitted to
conduct cases in any court of the United
States or any Territory thereof who so
multiplies the proceedings in any case
unreasonably and vexatiously may be
required by the court to satisfy personally
the excess costs, expenses, and attorneys'
fees reasonably incurred because of such
conduct.
28 U.S.C. § 1927; see also Salstrom, 74 F.3d at 185.
Accordingly, IT IS HEREBY ORDERED:
1. Defendant American West's Motion for Joinder,
ECF No. 23, is GRANTED.
2. The Motions to Strike Complaint and for More
Definite Statement, ECF Nos. 11 and 15, are
GRANTED.

App. 88

3. The Motion to Strike Amended Complaint, ECF
No. 33, is DENIED AS MOOT.
4. Plaintiffs' Complaint, ECF No. 1, and Amended
Complaint, ECF No. 29, are STRICKEN. Plaintiffs
may file a Second Amended Complaint of no more
than 30 pages, including any RICO case statement
allowed pursuant to LR 3.2.
5. The Second Amended Complaint must be filed on
or before January 5, 2015.
6. Failure to timely file an amended complaint or
failure to comply with the requirements of this Order
shall constitute grounds for sanctions, which may
include monetary sanctions and/or the striking of
some or all of Plaintiffs' claims. Such relief may be
imposed by the Court sua sponte, or may be heard on
shortened time, at the Court's discretion.
The District Court Clerk is directed to enter this
Order and provide copies to counsel.
DATED this 19th day of December 2014.
/s/ Rosanna Malouf Peterson
ROSANNA MALOUF PETERSON
Chief United States District Court Judge

App. 89

18 U.S. Code § 152. Concealment of assets; false
oaths and claims, bribery.
A person who-(1) knowingly and fraudulently conceals from a
custodian, trustee, marshal, or other officer of
the court charged with the control or custody of
property, or, in connection with a case under
title 11, from creditors or the United States
Trustee, any property belonging to the estate of
a debtor;
(2) knowingly and fraudulently makes a false
oath or account in or in relation to any case
under title 11;
(3) knowingly and fraudulently makes a false
declaration,
certificate,
verification,
or
statement under penalty of perjury as permitted
under section 1746 of title 28, in or in relation to
any case under title 11;
(4) knowingly and fraudulently presents any
false claim for proof against the estate of a
debtor, or uses any such claim in any case under
title 11, in a personal capacity or as or through
an agent, proxy, or attorney;
(5) knowingly and fraudulently receives any
material amount of property from a debtor after
the filing of a case under title 11, with intent to
defeat the provisions of title 11;
(6) knowingly and fraudulently gives, offers,
receives, or attempts to obtain any money or

App. 90

property, remuneration, compensation, reward,
advantage, or promise thereof for acting or
forbearing to act in any case under title 11;
(7) in a personal capacity or as an agent or
officer of any person or corporation, in
contemplation of a case under title 11 by or
against the person or any other person or
corporation, or with intent to defeat the
provisions of title 11, knowingly and
fraudulently transfers or conceals any of his
property or the property of such other person or
corporation;
(8) after the filing of a case under title 11 or in
contemplation
thereof,
knowingly
and
fraudulently conceals, destroys, mutilates,
falsifies, or makes a false entry in any recorded
information (including books, documents,
records, and papers) relating to the property or
financial affairs of a debtor; or
(9) after the filing of a case under title 11,
knowingly and fraudulently withholds from a
custodian, trustee, marshal, or other officer of
the court or a United States Trustee entitled to
its possession, any recorded information
(including books, documents, records, and
papers) relating to the property or financial
affairs of a debtor,
shall be fined under this title, imprisoned not
more than 5 years, or both.

App. 91

18 U.S. Code § 153. Embezzlement against
estate.
a) Offense. A person described in subsection (b)
who knowingly and fraudulently appropriates to
the person's own use, embezzles, spends, or
transfers any property or secretes or destroys
any document belonging to the estate of a debtor
shall be fined under this title, imprisoned not
more than 5 years, or both.
(b) Person to whom section applies. A person
described in this subsection is one who has
access to property or documents belonging to an
estate by virtue of the person's participation in
the administration of the estate as a trustee,
custodian, marshal, attorney, or other officer of
the court or as an agent, employee, or other
person engaged by such an officer to perform a
service with respect to the estate.

18 U.S. Code § 1962. Prohibited activities
(a) It shall be unlawful for any person who has
received any income derived, directly or indirectly,
from a pattern of racketeering activity or through
collection of an unlawful debt in which such person
has participated as a principal within the meaning of
section 2, title 18, United States Code, to use or

App. 92

invest, directly or indirectly, any part of such income,
or the proceeds of such income, in acquisition of any
interest in, or the establishment or operation of,
any enterprise which is engaged in, or the activities
of which affect, interstate or foreign commerce. A
purchase of securities on the open market for
purposes of investment, and without the intention of
controlling or participating in the control of the
issuer, or of assisting another to do so, shall not be
unlawful under this subsection if the securities of the
issuer held by the purchaser, the members of
his immediate family, and his or their accomplices in
any pattern or racketeering activity or the collection
of an unlawful debt after such purchase do not
amount in the aggregate to one percent of the
outstanding securities of any one class, and do not
confer, either in law or in fact, the power to elect one
or more directors of the issuer.
(b) It shall be unlawful for any person through a
pattern of racketeering activity or through collection
of an unlawful debt to acquire or maintain, directly
or indirectly, any interest in or control of any
enterprise which is engaged in, or the activities of
which affect, interstate o foreign commerce.
(c) It shall be unlawful for any person employed by
or associated with any enterprise engaged in, or the
activities of which affect, interstate or foreign
commerce, to conduct or participate, directly or
indirectly, in the conduct of such enterprise’s affairs
through a pattern of racketeering activity or
collection of unlawful debt.

App. 93

(d) It shall be unlawful for any person to conspire to
violate any of the provisions of subsection (a), (b), or
(c) of this section.
18 U.S. Code § 1951. Interference
commerce by threats or violence.

with

(a) Whoever in any way or degree obstructs, delays,
or affects commerce or the movement of any article
or commodity in commerce, by robbery or extortion or
attempts or conspires so to do, or commits or
threatens physical violence to any person or property
in furtherance of a plan or purpose to do anything in
violation of this section shall be fined under this title
or imprisoned not more than twenty years, or both.
(b) As used in this section (1) The term “robbery”
means the unlawful taking or obtaining of personal
property from the person or in the presence of
another, against his will, by means of actual or
threatened force, or violence, or fear of injury,
immediate or future, to his person or property, or
property in his custody or possession, or the person
or property of a relative or member of his family or of
anyone in his company at the time of the taking or
obtaining.
(2) The term “extortion” means the
obtaining of property from another, with his consent,
induced by wrongful use of actual or threatened
force, violence, or fear, or under color of official right.
(3) The term “commerce” means commerce within the
District of Columbia, or any Territory or Possession
of the United States; all commerce between any point

App. 94

in a State, Territory, Possession, or the District of
Columbia and any point outside thereof; all
commerce between points within the same State
through any place outside such State; and all other
commerce over which the United States has
jurisdiction.
(c) This section shall not be construed to repeal,
modify or affect section 17 of Title 15, sections 52,
101-115, 151-166 of Title 29 or sections 151-188 of
Title 45.

18 U.S. Code § 1964. Civil Remedies
(a)The district courts of the United States shall have
jurisdiction to prevent and restrain violations of
section 1962 of this chapter by issuing appropriate
orders, including, but not limited to: ordering any
person to divest himself of any interest, direct or
indirect, in any enterprise; imposing reasonable
restrictions on the future activities or investments of
any person, including, but not limited to, prohibiting
any person from engaging in the same type of
endeavor as the enterprise engaged in, the activities
of which affect interstate or foreign commerce; or
ordering dissolution or reorganization of any
enterprise, making due provision for the rights of
innocent persons.
(b)The Attorney General may institute proceedings
under this section. Pending final determination
thereof, the court may at any time enter such

App. 95

restraining orders or prohibitions, or take such other
actions, including the acceptance of satisfactory
performance bonds, as it shall deem proper.
(c)Any person injured in his business or property by
reason of a violation of section 1962 of this chapter
may sue therefor in any appropriate United States
district court and shall recover threefold the
damages he sustains and the cost of the suit,
including a reasonable attorney’s fee, except that no
person may rely upon any conduct that would have
been actionable as fraud in the purchase or sale of
securities to establish a violation of section 1962. The
exception contained in the preceding sentence does
not apply to an action against any person that is
criminally convicted in connection with the fraud, in
which case the statute of limitations shall start to
run on the date on which the conviction becomes
final.
(d)A final judgment or decree rendered in favor of
the United States in any criminal proceeding brought
by the United States under this chapter shall estop
the defendant from denying the essential allegations
of the criminal offense in any subsequent civil
proceeding brought by the United States.
28 U.S.CODE § 1254(1) Courts of Appeals;
certiorari; certified questions
(1) By writ of certiorari granted upon the petition of
any party to any civil or criminal case, before or
after rendition of judgment or decree;

App. 96

42 U.S.CODE § 1981. Equal Rights Under the
Law
(a) STATEMENT OF EQUAL RIGHTS
All persons within the jurisdiction of the United
States shall have the same right in every State and
Territory to make and enforce contracts, to sue, be
parties, give evidence, and to the full and equal
benefit of all laws and proceedings for the security of
persons and property as is enjoyed by white citizens,
and shall be subject to like punishment, pains,
penalties, taxes, licenses, and exactions of every
kind, and to no other.
(b) “MAKE AND ENFORCE CONTRACTS” DEFINED
For purposes of this section, the term “make and
enforce contracts” includes the making, performance,
modification, and termination of contracts, and the
enjoyment of all benefits, privileges, terms, and
conditions of the contractual relationship.
(c) PROTECTION AGAINST IMPAIRMENT
The rights protected by this section are protected
against
impairment
by
nongovernmental
discrimination and impairment under color of State
law.

